<html>
<title> - GLOBAL WARMING AND WILDLIFE</title>
<body><pre>[Senate Hearing 110-971]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-971

                      GLOBAL WARMING AND WILDLIFE

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON PRIVATE SECTOR
                       AND CONSUMER SOLUTIONS TO
                      GLOBAL WARMING AND WILDLIFE

                                 of the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 7, 2007

                               __________

  Printed for the use of the Committee on Environment and Public Works



      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
53-823PDF                 WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001








               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             FIRST SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                                 ------                                

Subcommittee on Private Sector and Consumer Solutions to Global Warming 
                        and Wildlife Protection

               JOSEPH I. LIEBERMAN, Connecticut, Chairman

MAX BAUCUS, Mantana                  JOHN W. WARNER, Virginia
FRANK R. LAUTENBERG, New Jersey      JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             JOHNNY ISAKSON, Georgia
BARBARA BOXER, California (ex        JAMES M. INHOFE, Oklahoma (ex 
officio)                             officio)








                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 7, 2007
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     5
Isakson, Hon. Johnny, U.S. Senator from the State of Georgia.....     7
Lieberman, Hon. Joseph I., U.S. Senator from the State of 
  Connecticut....................................................     1
Warner, Hon. John, U.S. Senator from the Commonwealth of Virginia     3

                               WITNESSES

Foote, A. Lee, Associate Professor, University of Alberta........    14
    Prepared statement...........................................    41
Kelly, Brendan P., Associate Vice President for Research, 
  University of 
  Alaska.........................................................    17
    Prepared statement...........................................    44
Lovejoy, Thomas E., President, Heinz Center for Science, 
  Economics and the Environment..................................     8
    Prepared statement...........................................    35
Mann, Roger, Director for Research and Advisory Services, School 
  of Marine Science, Virginia Institute of Marine Science, 
  College of William and Mary....................................    10
    Prepared statement...........................................    37
Stalling, David H., Western Field Coordinator, Trout Unlimited...    12
    Prepared statement...........................................    39

                          ADDITIONAL MATERIAL

Letters:
    Association of Fish & Wildlife Agencies......................   112
    Scientists and Evangelicals..................................   108
    Sportsmen and Wildlife conservation groups...................   114
Statements:......................................................
    Clark, Jamie Rappaport, Executive Vice President, Defenders 
      of Wildlife................................................    46
    International Union for Conservation of Nature (IUCN)........   104
    National Wildlife Federation, Nationwide Opinion, Survey of 
      Hunters and Anglers, March/April 2006......................    87
    Schweiger, Larry J., President & CEO, National Wildlife 
      Federation.................................................    61
    U.S. Fish and Wildlife Service...............................   129

 
                      GLOBAL WARMING AND WILDLIFE

                              ----------                              


                      WEDNESDAY, FEBRUARY 7, 2007

                               U.S. Senate,
         Committee on Environment and Public Works,
  Subcommittee on Private Sector and Consumer Solutions to 
                    Global Warming and Wildlife Protection,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:00 a.m. in 
room 406, Dirksen Senate Office Building, the Hon. Joseph 
Lieberman (chairman of the committee) presiding.
    Present: Senators Lieberman, Warner, Boxer, Inhofe, 
Isakson, Alexander

OPENING STATEMENT OF THE HON. JOSEPH I. LIEBERMAN, U.S. SENATOR 
                 FROM THE STATE OF CONNECTICUT

    Senator Lieberman. Good morning, and welcome to this first 
hearing of the Subcommittee on Private Sector and Consumer 
Solutions to Global Warming and Wildlife Protection.
    It is my honor to convene this first hearing. In doing so, 
I want to thank the Chairman of the overall Committee on 
Environment and Public Works, Senator Boxer, for creating this 
subcommittee focused on these challenges. It is a measure of 
her commitment and I think the committee's, on a bipartisan 
basis, to get something done, and particularly to seize the 
moment and the momentum that is building across our country and 
in most importantly, in the world of science and scientific 
inquiry and conclusion that global warming is real and that we 
have got to do something about it to protect ourselves and 
those who will follow us here on Earth.
    I am very happy and honored that Senator Warner has agreed 
to become the ranking Republican on this subcommittee. He is a 
dear friend, a great Senator and I know wants to go forward and 
see if we can get some things done. I thank the other members 
who are here, Senator Inhofe, the ranking Republican on the 
overall committee, and Senator Isakson.
    Last Friday, the Intergovernmental Panel on Climate Change, 
known generally as the IPCC, issued its most recent report, in 
which it found a greater than 90 percent probability, this is 
the language of science, but this number has gone up 
dramatically in each of the IPCC reports, more than 90 percent 
probability that greenhouse gases release by human activities, 
such as burning coal in power plants or using gasoline from oil 
in our cars and trucks, have caused most of the global warming 
observed over the last 50 years. If we fail to reduce our 
emissions of greenhouse gases now, or as soon as possible, the 
report says, the global average surface air temperature will 
rise by 3 to 7 degrees Fahrenheit by the end of this century. 
That is an astounding number, an enormous jump in global 
temperatures, which has reached the point where it is 
comprehensible by us non-scientists, to see how significant the 
potential changes are here.
    As a result, according to the IPCC, sea levels will rise, 
snow cover will contract and sea ice will recede. Heat waves 
will become more frequent, hurricanes and typhoons will become 
more intense and rainfall will become less frequent in the sub-
tropics. I don't read this report as a plea for panic, but it 
certainly is a summons to action, and quickly. The purpose of 
today's hearing is to build on our knowledge of the impacts, 
real and potential, of global warming on wildlife in different 
regions of this country and the world, to see how climate 
change is already having an effect on the species and what 
further impacts the experts we have before us would expect if 
the IPCC, based on the IPCC report.
    Let me just give you as one recent example, just 2 months 
ago, within the last 2 months, the Director of the U.S. Fish 
and Wildlife Service has identified a warming climate and the 
resulting melting of sea ice as the primary reason polar bears 
may now be threatened as a species and may in fact be 
endangered, as a matter of law. We will hear today that the 
polar bear is not the only species so endangered by the warming 
of the globe, and that Arctic is not the only region of the 
world with such climate-sensitive species.
    I must say that the diversity of voices in this country, 
not talking about the world, expressing concern about the harm 
done to wildlife by global warming, is striking and impressive. 
A poll conducted last spring by the National Wildlife 
Federation found that 67 percent of hunters and anglers in this 
country believe global warming is an urgent problem requiring 
immediate action. Seventy-five percent believe Congress should 
pass legislation that sets a clear national goal for reducing 
global warming pollution with mandatory time lines.
    I am going to ask unanimous consent to put that National 
Wildlife Federation report into the record.
    [The referenced material can be found on page 87.]
    Senator Lieberman. Last month, prominent evangelical 
leaders in this country, including the Rev. Richard Cizik of 
the National Association of Evangelicals and the Rev. Jim Ball 
of the Evangelical Environmental Network signed a statement 
asserting that the earth is ``seriously imperiled by human 
behavior,'' that is a quote, and ``the harm is seen throughout 
the natural world, including in the form of global warming.''
    The IPCC's new assessment finds that greenhouse gases we 
have emitted over the past decades will inevitably cause some 
global warming. There is no stopping it. When Congress 
hopefully soon enacts legislation to reduce our greenhouse gas 
emissions, the legislation will, I hope, include measures 
designed to help wildlife species deal with the changes that 
are now unavoidable, while obviously reducing greater changes 
in the future.
    The bill that I recently re-introduced with Senator McCain 
and others includes such measures. I believe we can make these 
provisions even stronger, and I look forward to working with my 
colleagues, as well as sportsmen, sportswomen, wildlife 
conservation advocates and academic experts to do so.
    I do want to put in the record a letter from 375 sportsmen 
and wildlife conservation groups, asking that funding for fish 
and wildlife protection and conservation be included in any 
global warming legislation, as well as a letter from the 
Association of Fish and Wildlife Agencies of our country, 
supporting the provisions in our bill that allocate funds from 
auctioned emission allowances to help fish and wildlife adapt 
to the warming of the globe that the IPCC now tells us is 
unavoidable.
    [The referenced letter can be found on page 114.]
    Senator Lieberman. I really look forward to working with my 
fellow members of this subcommittee and the overall committee 
to see if we can't find bipartisan, non-partisan common ground 
to begin to take action and assume responsibility for a problem 
that it certainly seems to me we are causing. I thank all the 
witnesses who are here, and I look forward to hearing their 
testimony.
    At this point, I would invite Senator Warner to make an 
opening statement.

 OPENING STATEMENT OF THE HON. JOHN WARNER, U.S. SENATOR FROM 
                  THE COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you, Mr. Chairman. I would be happy 
to defer to my distinguished colleague, the ranking member, and 
I want to thank you, Senator Inhofe, for honoring my request, 
which is the only one I made to the committee, and that is to 
serve on this Subcommittee. If you would like to proceed, I 
will follow you.
    Senator Inhofe. You go ahead.
    Senator Warner. I will just ask to include in the record my 
opening statement and maybe make a personal observation.
    I come to this issue, I would have to tell you, uninformed, 
and with an open and an objective mind, to learn about it. I 
don't claim to be an expert in this area. But I have an intense 
interest. You said something about the sportsmen. I have to 
tell you, my personal habits are, when I can't go to sleep, I 
reach over and get either my magazine on Trout Unlimited or one 
of my shooting volumes to read, and then I can quietly go to 
sleep.
    [Laughter.]
    Senator Warner. And my lovely wife and I just rehabbed our 
house, we bought a house that needed substantial rehab. And I 
soon recognized that I was going to have almost no voice 
whatsoever in what was to be done. But I did prevail on one 
thing, and that is in our library, I finally got the gun case I 
always wanted, with glass panels. And in it is a shotgun given 
to me by my father when I was 12 years old. And to give you a 
point in time, I will be 80 in 2 weeks. That gun has seen some 
action.
    Anyway, I love the outdoors, and I cherish the moments I am 
with my grandchildren now, sharing the simple joys of fishing 
and hunting that I had with my wonderful father and others in 
years past. So I feel an obligation to make this work.
    Lastly, of all of our hearings, I don't know, this will be 
the one I perhaps look forward to the most, because I am 
interested in this. I just simply say this. There is such 
controversy out here that it is really a challenge for this 
subcommittee to try and plow through that and find the solid 
factual base on which any conclusions that the Congress may 
make has to rest. In doing that, I observe one thing, with no 
disrespect to anyone in the audience, with their particular 
constituency they are representing, the wildlife and the plant 
species are not represented by any lobbyist. And how they react 
to today's climate is a pure, clear science. It could well 
provide the benchmarks, the indicators, the early indicators of 
what direction our Nation and a collective group of nations 
must move to solve this problem.
    So long live the wildlife and the plant life and I am 
anxious to hear what you have to say.
    Senator Lieberman. Thanks, Senator Warner. Congratulations 
in that small victory in the ongoing spousal disputes that we 
all have.
    [Laughter.]
    Senator Lieberman. And may I say, I believe I speak for 
everyone in the room, I certainly speak for myself, that I hope 
I am looking and doing as well as you are when I approach 80. 
God bless you.
    Senator Boxer.

OPENING STATEMENT OF THE HON. BARBARA BOXER, U.S. SENATOR FROM 
                    THE STATE OF CALIFORNIA

    Senator Boxer. Thank you so much, Mr. Chairman, and I am 
very pleased at the makeup of this subcommittee, and pleased 
that you and Senator Warner are launching this early hearing.
    Today, we address a very important topic as we continue to 
consider global warming and its impact on our planet, 
particularly global warming's effect on wildlife, and I won't 
go over the IPCC report, because I think Senator Lieberman laid 
it out very clearly.
    But I think it is important to note that that report was 3 
years in the making was, 1,200 scientists directly involved. If 
you consider all the scientists, it was about 2,500 for more 
than 100 countries, including the United States of America. As 
a matter of fact, the Bush administration took credit, in large 
part, for the report, said that they had been very much in the 
lead in putting it together.
    Now, the catastrophic effects that are discussed in the 
report including melting of Arctic ice, rising sea levels, 
destruction of coral reefs, deadly heat waves, increases in 
extreme weather events, negative impacts on food production and 
water supplies, and many other dangerous impacts that can 
affect our national security, our economic security and, as 
Senator Warner pointed out, our qualify of life with our 
families.
    While the impacts on humans will be severe if we don't act, 
and of course, I am an optimist and I believe we will act, the 
impacts on wildlife and endangered species can be equally 
devastating if we don't act to curb global warming. Because if 
the earth continues to warm, many animals will find themselves 
living under conditions for which they are not well adapted, 
and many of these species are already under great pressure from 
development and other human activities. Global warming could 
magnify those effects many times over. The affected wildlife 
could include many game species that are both culturally and 
economically important to us in a variety of ways.
    I just want to show you three charts. I love charts. The 
first one is the statement of Secretary of the Interior 
Kempthorne: ``We are concerned the polar bears' habitat may be 
literally melting.'' He said that December 27, 2006, when he 
acted to consider whether the polar bear really is a threatened 
species.
    And then I want to show you just two pictures of the many I 
have, but I culled it down to two, showing the polar bear, just 
needs that ice to be solid, that one. And then this next one.
    Global warming's impacts on wildlife do not just affect 
individual species. They have a tremendous impact on our 
economy. And I think that is important, because people say, 
well, what is the cost of stopping global warming? Well, what 
is the cost of doing nothing? I think we have heard from the 
economists in the Stern Review that it is a huge cost, and that 
a dollar that we invest today will save $5.00 in the future.
    My home State of California is one of the most biologically 
diverse regions of the planet, because of the number of 
climates and ecosystems on its borders. From sports fishing on 
the north coast of California to big game viewing in the Sierra 
Nevada, this biodiversity is one of the most valuable natural 
resources helping our fragile rural economies.
    In 2001, more than 7.2 million people spent nearly $5.7 
billion on wildlife viewing, hunting and fishing in California, 
directly supporting 114,000 jobs. In short, biodiversity is big 
enjoyment for our families. It is also big business.
    So curbing global warming will save thousands of California 
jobs, maintain many important industries and maintain the 
quality of life for our families. I am very eager to hear the 
testimony of this distinguished panel, and I would say to my 
friends who are heading this committee, Senators Lieberman and 
Warner, thank you so much. There is a conflicting hearing on 
global warming in the Commerce Committee on which I serve, so I 
may be running back and forth. But I am just so pleased that 
you took the time out of your hectic schedules to look at this 
issue. Thank you.
    Senator Lieberman. Thanks very much, Senator Boxer.
    Senator Inhofe, we appreciate your taking the time to be 
here this morning.

  OPENING STATEMENT OF THE HON. JAMES M. INHOFE, U.S. SENATOR 
                   FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you very much, Mr. Chairman. I don't 
have this as a part of my opening statement, but I want to 
respond to a couple of things that have been said in the 
opening statements.
    First of all, the IPCC report that is out, was out last 
Friday, is not the report, that is the summary for policy 
makers. It is not the scientists. That report comes out some 
time in May or June.
    Interestingly enough, even in the summary, they stated that 
in terms of the sea level rising, that has been reduced by 50 
percent from 36 feet, I believe, to 17 feet. They also said 
that they have downgraded the contribution, Senator Boxer, of 
man's contribution to global warming or to climate change by 25 
percent. This comes from IPCC in just the summary for policy 
makers. And they also state that livestock now is producing 
more of the gases that would affect climate, if you were to buy 
into it, than human beings.
    And as far as the evangelistic organization goes, I am sure 
that neither of you are aware of this, but the Richard Cizik 
you refer to is on his own, and I am sure he is being well 
rewarded for doing it, he has been rejected by the National 
Association of Evangelicals. So I just wanted to mention those 
little corrections.
    I think it goes without saying that the earth has 
experienced climate change that has affected species. The 
concern I continue to voice is the leap of faith that human 
beings are responsible for any variation in climate or that 
species will go extinct if we don't regulate greenhouse gases. 
Animals are fun and fuzzy and I love them and obviously they 
can be used to advance another agenda.
    The fact is that the relationship between species and 
climate is not clearly understood. Our growing knowledge about 
the planet is still in its infancy. For example, just last year 
we discovered for the first time a great discovery, and that 
was that trees emit methane. Methane is a form of greenhouse 
gas. This was never thought of before and it never entered into 
any of the models that have been used.
    Our lack of understanding doesn't stop some from trying to 
force linkages between climate change and species, as is the 
case with the proposal to list the polar bear under the 
Endangered Species Act. Based on the scientific literature, I 
don't believe we have a firm understanding of what is actually 
occurring in the Arctic. Sea ice data is incomplete for one of 
the most important Arctic climate variables, precipitation and 
evaporation.
    The Arctic climate impact assessment found, and I am 
quoting now from the Arctic climate impact assessment, 
uncertainties concerning even the present day distribution of 
precipitation and evaporation are sufficiently large that 
evaluations of recent variations in trends are problematic. So 
how can we predict future trends and their impact on polar 
bears if we don't--they just handed me this. We were talking 
about Richard Cizik a minute ago, and the fact that he has been 
discredited. If you don't believe this, read the recent article 
that just came out on him called Feeling the Heat.
    Anyway, as far as the polar bear data, this is kind of 
interesting, Mr. Chairman, because there are 19 populations of 
polar bears around. I think we all understand that. Of the 19 
populations, 14 are either stable or are increasing. There is 
no evidence of decline in those.
    Now, overall, and this is very significant, I say to my 
good friend, and she is a good friend, Senator Boxer, is that 
since the 1950s and 1960s, the polar bear population has more 
than doubled. It has gone up from 10,000 to 25,000. The Fish 
and Wildlife Service base their listings on entire polar bear 
populations on data from a single population. This happens to 
be in western Hudson Bay. The population has declined some 22 
percent, they are saying, in the past 17 years.
    However, hunting is accountable for 460 of the bears. Now, 
that is based on a 5-year average. So if you take that, that 
amount is equal or more than equal to the decline in population 
over a 17-year period. So that has to be something that is one 
of the considerations.
    I believe the proposal to list the polar bear, and more 
broadly, to link climate changes and species is part of an 
effort to alter energy policy and shut down development, not 
just in Alaska, but across the Nation. This agenda was made 
clear just last week when the Center for Biological Diversity 
filed a petition asking seven Federal agencies, including the 
U.S. Fish and Wildlife Service, and the National Marine 
Fisheries Service, to consider the potential effects of global 
warming on species when undertaking any major action, such as 
highway construction or energy permitting. It is clear that 
environmentalists are seeking to use America's love for 
wildlife as a way to bring about climate changes that they 
can't get through science alone.
    You know, I think it is very important to understand also 
that those of us who are, who question, in fact, right now, 
more of the scientists who are lined up, as we will bring out 
in some of the questions later on, marching in the aisles and 
saying it is man-made gases are now coming around and saying 
that it is not the case.
    Claude Allegre is a good example, from France. He was 
member of both the French and American Academy of Sciences. He 
is a geophysicist. And he was one of the strongest promoters in 
France that it was man-made gases causing climate change. He 
has now come around and he said, no, the science does not 
support that any longer. And I can name scientist after 
scientist who has come to this conclusion. They say it is 
really all about money. That is what Claude Allegre said. And I 
think there is a lot of money in this issue, a lot of money.
    Lastly, it is true as we go through, we know about the 
little ice age and the Medieval warming period. We know what 
happened starting in the middle 1940s in terms of the heating 
that took place at that time, up through about 1975, from about 
1950 to 1975. And at that time, all the magazines who are now 
talking about the world is coming to end because of global 
warming were saying another ice age is coming and we are all 
going to die.
    So with that, thank you for having this hearing.
    Senator Lieberman. Thank you very much, Senator Inhofe.
    Senator Isakson, welcome to the Subcommittee. It is the 
first chance I have had to publicly thank you for the great 
representation you give my children and grandchildren who live 
in Georgia.

OPENING STATEMENT OF THE HON. JOHNNY ISAKSON, U.S. SENATOR FROM 
                      THE STATE OF GEORGIA

    Senator Isakson. I am delighted to do it, Mr. Chairman. I 
am honored to be here. In light of the subject and the previous 
statements, I will not take time away from the panel, except to 
associate myself with the remarks of Senator Warner. I thought 
he made an excellent statement. I think I come to the meeting 
in the same way that he does, with an open mind, seeking 
unvarnished and unbiased fact in an issue that has an awful lot 
of both. So I appreciate Senator Warner's statement, I 
appreciate the panelists being here today. I thank the Chairman 
for letting me have a moment.
    Senator Lieberman. Thank you, Senator Isakson.
    Now we will go to our witnesses. We have an outstanding 
panel, it is the only panel that the hearing will hear. I know 
I speak for myself and the whole subcommittee when I say we are 
really looking forward to listening and learning and then 
asking some questions.
    The first witness is Dr. Thomas Lovejoy, who is Director of 
the Heinz Center for Science, Economic sand the Environment. He 
has served on science and environmental councils and committees 
in the Reagan, Bush and Clinton Administrations. He is the 
originator of the concept of debt-for-nature swaps and created 
the public television series, Nature. He is the author of 
several books, including one on climate change and 
biodiversity.
    Dr. Lovejoy, it is a pleasure to welcome you and to see you 
again.

  STATEMENT OF THOMAS E. LOVEJOY, PRESIDENT, HEINZ CENTER FOR 
             SCIENCE, ECONOMICS AND THE ENVIRONMENT

    Mr. Lovejoy. Thank you, Mr. Chairman and committee members, 
for the opportunity to share my testimony on climate change and 
the world of nature. It has been a subject I have been 
following for two decades. I have done two books on it, brought 
the second one for the committee, along with the scientific 
citations behind the main points in my testimony.
    Between the first book and the second book, which came out 
2 years ago, the difference is that one can definitely see 
signals in nature of plants and animal species and populations 
responding to the climate change. It has also moved from being 
essentially single examples, sort of anecdotal evidence to 
statistically robust evidence. We are seeing changes in the 
timing of flowering, we are seeing changes in the time of 
migration, changes in the time of nest building, egg laying. We 
are seeing changes in the actual distributions of some species, 
where they occur. And we are beginning to see some mismatches 
occur between species that are related, like a butterfly and 
its food plant species for the caterpillar stage.
    The more important thing, I think, is to move from those 
signals of the moment to look forward with further climate 
change. And one can say the following things about it. Based on 
how biological communities responded to climate change in the 
geologic past, we can expect biological communities not to sort 
of move as a unit, but rather for the individual species to 
move in their own particular directions and at their own 
particular rates, which means that ecological communities will 
disassemble and the constituent species will assembly into 
novel communities.
    It is going to be a messy picture, watching that happen. 
The major difference between their response in the past and 
what we can expect in the future, of course, is that we have 
highly modified landscapes in many parts of the country and in 
the world, basically creating an obstacle course as species 
attempt to track their required environmental conditions.
    And some species will actually have nowhere to go. With a 
certain amount of sea level rise, the Key deer in the Florida 
Keys will have no habitat left. Species on tops of mountains as 
the climate warms will have no further up altitude direction to 
go. And we are also going to see a lot of ecosystem thresholds 
passed. We have already seen a couple in this country. The 
warmer nights have been favoring certain insect pests like the 
wooly adelgid in Virginia and the pine bark beetle in British 
Columbia, Alaska and in the northwest. In the latter case, it 
is really quite dramatic, in some places up to 70 percent of 
the trees have died as a consequence. It looks like autumn 
foliage, except it is pine trees and it is a very serious 
forest management and fire management problem.
    So we are going to see these tipping points within 
ecosystems, many of which will be very hard to predict in 
advance. And we are also seeing system changes. The most 
prominent of those is the acidification of the oceans, which 
comes not from the climate change per se, but from the 
increased CO<INF>2</INF> in the atmosphere. So today, 
literally, the oceans are 30 percent more acid than in pre-
industrial times, which has serious implications for any 
organism that builds a skeleton out of calcium carbonate.
    So one can conclude from all of that that the natural world 
is indeed highly sensitive to climate change. Although it is 
hard to make the detailed projections, I think it is pretty 
clear that a doubling of CO<INF>2</INF> would be disastrous for 
the natural world. And even the figure of 450 parts per 
million, which some conservation groups have identified as a 
safe level to stop at, could be pretty messy in itself.
    So that is an overview of the topic, and thank you for the 
opportunity.
    Senator Lieberman. Thanks very much, Dr. Lovejoy. It was a 
sobering beginning of our discussion. We look forward to 
questions.
    Dr. Roger Mann is our next witness. He is the Director of 
Research and Advisory Services at the Virginia Institute of 
Marine Services, School of Marine Science, which is the College 
of William and Mary's professional graduate school in marine 
science. Dr. Mann is a marine ecologist who focuses on oysters, 
clams and invasive species in the Chesapeake Bay. He has been a 
researcher examining natural ecosystems and their management 
for both ecological services and sustained harvests of 
commercially valuable products for over 30 years. We are 
delighted to have you here and look forward to your testimony 
now, Dr. Mann.
    Senator Warner. Would you indulge me, Mr. Chairman?
    Senator Lieberman. Excuse me, I yield to my friend from 
Virginia.
    Senator Warner. I want to welcome my constituent. The one 
thing that this witness has at his immediate disposal is one of 
the most precious and largest ecosystems in all of our United 
States, our Chesapeake Bay. The Congress has, year after fear, 
tried to support the rehabilitation of that system. And subject 
to his concurrence, I will give you my own opinion, having 
introduced with Senator Mathias, a long-time colleague here in 
the Senate, the initial legislation to try and reverse the 
trends in the Bay, we simply have not made any real, 
significant success. The Bay has continued to decline.
    So you have a built-in laboratory within a stone's throw of 
where you are living your life in that magnificent community of 
Williamsburg, VA. So I thank this witness for taking the time 
to go up here through wind, sleet and snow this morning to 
joint us.
    Senator Lieberman. Thanks, Senator Warner.
    Dr. Mann.

  STATEMENT OF ROGER MANN, DIRECTOR FOR RESEARCH AND ADVISORY 
   SERVICES, SCHOOL OF MARINE SCIENCE, VIRGINIA INSTITUTE OF 
          MARINE SCIENCE, COLLEGE OF WILLIAM AND MARY

    Mr. Mann. Thank you, Mr. Chairman, and thank you, Senator 
for those kind words. The Chesapeake Bay is indeed a national 
treasure and we should do whatever we can to ensure that it 
stays pure.
    I have been a researcher examining these natural systems, 
as was mentioned, for over 30 years. While my primary focus has 
been estuarine and coastal systems, it is really quite 
difficult to imagine how you can look at those without also 
examining and coming to understand the complexity of the 
watersheds that provide the rivers that flow into those 
systems.
    So indeed, in order to do my job, I have to know something 
about all the way to the feet of the Appalachians. Today I am 
going to talk to you with a regional focus on the Commonwealth 
of Virginia. As the Senator mentioned, the current worldwide 
projections for increase in temperature over the next century 
go between 3 and 7 degrees Fahrenheit. All of these are based 
on models, and one of the things that is difficult about these 
large, global models is that when you try to look at small 
regional levels, they sometimes don't work quite as well in 
terms of predictions.
    So when we look at the issue with Virginia, our predictions 
go anywhere from a 3 to 4 to 5 degree rise, or even one model 
that I've seen that goes as far as 11 degrees, very substantial 
changes. What is also bad about these models is they are not 
quite as good as predicting rainfall as they are looking at 
temperature, and really the two go together. So I have seen 
instances where we get drier conditions, wetter conditions, 
wetter conditions with more rain in the spring but less in the 
fall, or those combined with more tumultuous events like 
hurricanes. So there are lots of things on the palette here. 
Nearly all of them are bad.
    If you look at the whole issue and ask one question, is 
fresh water important, it is absolutely seminal. Fresh water 
affects everything that happens in wildlife. So when we look at 
these models, all of them are cause for concern.
    Virginia is indeed an excellent example as a laboratory to 
look at this, not just because of the Chesapeake Bay. But if 
you take a short walk across Virginia, you go from the 
Appalachians, through its foothills and the forests, through 
the rich areas of agricultural land into the freshwater 
marshes, into the salty estuaries that feed into the Chesapeake 
Bay with its salt marches, out into the continental areas where 
you see barrier islands and indeed, out onto the shallow 
continental shelf itself.
    This is a relatively small transact when one looks at it 
with respect to the size of this country. But when one looks at 
the animal and plant communities that exist along it, there is 
remarkable diversity. There is diversity in the east-west and 
the north-south direction. And the changes, as you look at 
these communities going one to the next, the biogeographic 
regions, the borders between them are all very subject to 
climate change. They will indeed move, as was described by Dr. 
Lovejoy. And in fact, we are watching those movements.
    Again, perhaps to be a little repetitive, if there is one 
message that I can leave you today, just one, it is that 
destabilizing the habitat relationships between all of these 
animal and plant species that live in these single communities, 
then if you destabilize them, there is a potential domino 
effects. You take out one species or you alter it, then it 
affects the next species and then the next and then the next.
    So often the sort of signals that you do see and will see 
from climate change are not necessarily those that affect every 
species, but they start with this one small step. Probably the 
best analogy I can find is that of a spider's web, where all 
parts contribute to stability and function. But if you break a 
limited number of the strands, the web is weakened. You only 
have to break a few more before the thing starts to disassemble 
very quickly. It is actually, I think, a fairly good analogy. 
And in talking to many of my colleagues who work with wildlife 
throughout the Commonwealth of Virginia, their concern is that 
we are starting to pick away at individual threads in this web.
    Again, if we take that quick walk across Virginia and we 
ask what are the predicted impacts, some of which we already 
have evidence for, but some of which we also expect, they go 
from the Appalachians to the coastal shelf. This is a quick 
list, and it is frightening: a higher prevalence of forest 
fires; increased impacts of insects on forest resources; 
fragmentation of the forest itself, which has considerable 
problems for the birds and wildlife; increased displacement of 
native plants by invasive species and forest freshwater 
wetlands and managed agriculture.
    That comment came from people who work in forestry and in 
agriculture many times. It is not just my particular bias 
towards invasive species.
    Changes in the nutritional value of farm crops. There is a 
lot of wildlife that eat farmed crops, as well as we do. 
Changes in river flow and water quality impact on freshwater 
fishes in both the rivers and in the lakes. Increased low 
dissolved oxygen seasonal dead zones in the Chesapeake Bay. 
This is truly frightening. Large parts of the deeper waters in 
the Chesapeake Bay have no oxygen in the summer. This is 
projected to get worse. It forces animals out of these deep 
water areas into the shallows where it is warmer. The end 
product is that they become more susceptible to diseases and we 
do see increasing diseases in both the fish populations.
    For those of you who have ever fished for striped bass, 
this is a magnificent fish. Striped bass is very susceptible 
here. Oysters the same. Two years ago, we saw a large dieback 
in the submerged aquatic vegetation in the shallows of the bay, 
temperature related. This is the crucial habitat for small 
crabs and fishes.
    As you go out onto the eastern shore, we see real threats 
to the food species for migratory birds that move up and down 
the Atlantic flyway. These are birds that just move through, 
but we are an important feeding stop. And when you move out 
onto the continental shelf, there are numerous species that are 
now moving northwards in their distributions and into deeper 
water. This is well documented. My graduate students have done 
it, amongst many others.
    Across Virginia from the Appalachians to the 
intercontinental shelf, we are observing these changes. They 
can arguably be linked to global warming and we expect these 
trends to continue. As biologists, those of us who are watching 
it, we are concerned. All of us, all of us as custodians of 
this rich natural resource should be concerned and support 
action to try and halt these trends.
    Thank you for the opportunity to comment.
    Senator Lieberman. Thank you very much, Dr. Mann. Excellent 
testimony.
    We now welcome David Stalling. Mr. Stalling is the Western 
Field Coordinator of Tout Unlimited. He lives and works in 
Missoula, MT. As part of Trout Unlimited's public lands 
initiative, Mr. Stalling helps to inform and rally hunters and 
anglers to protect public wildlands for the American west.
    Mr. Stalling, my original text here in introducing you now 
says ``Mr. Stalling is a former Marine.'' I know there is no 
such thing as a former Marine.
    [Laughter.]
    Senator Lieberman. So you are a Marine and an avid 
fisherman and bow hunter. Mr. Stalling has been hunting elk in 
Montana's back country for more than 17 years. He has written 
hundreds of articles on elk, elk hunting, conservation, 
wildlife management and natural history. Perhaps you have an 
avid reader of some of your articles to my right here.
    He recently contributed a chapter to the Wildlife 
Management Institute volume ``North American Elk: Ecology and 
Management.'' It is a pleasure to have you here, and we look 
forward to your testimony now.

  STATEMENT OF DAVID H. STALLING, WESTERN FIELD COORDINATOR, 
                        TROUT UNLIMITED

    Mr. Stalling. Thank you, Senator.
    Senator Warner. Would you indulge me a minute?
    Mr. Stalling. Yes.
    Senator Warner. I hosted a breakfast for the Commandant of 
the Marine Corps right above this room this morning for about 
150 people. Were you present?
    Mr. Stalling. I was not, Senator.
    Senator Warner. Then your absence should be noted. Thank 
you, Mr. Chairman.
    [Laughter.]
    Mr. Stalling. Thank you for this opportunity, but more 
importantly, thank you for taking on this vital issue and 
trying to find immediate solutions.
    As mentioned, I am not a scientist, I am not a wildlife 
biologist. However, I am an avid hunter and angler and 
backpacker, and I spend a lot of time out in the wilds, 
particularly in Montana, and know the wilds there well, and 
spend a lot of time among the hunters and anglers of Montana 
and other places in the west.
    I cherish these wild places. I am very passionate about 
protecting them. That is what brought me to Montana when I left 
the Marine Corps in 1986, and it is what keeps me in Montana. 
It is also what keeps me fighting for their protection. And as 
mentioned, I do organize hunters and anglers throughout the 
west to help protect wetlands. I am also the past president of 
the Montana Wildlife Federation, which is Montana's oldest and 
largest conservation organization. And I volunteer for the 
National Wildlife Federation, in addition to working for Trout 
Unlimited. Prior to that I worked for the Rocky Mountain Elk 
Foundation in Missoula.
    The scientific evidence regarding global warming, and in my 
writing, I try to make the connection for people to understand 
the connection between good science and good wildlife 
management. So I do read a lot of the science, even though I am 
not a scientist. It seems the evidence regarding global warming 
is conclusive and overwhelming. Those of us closest to the land 
are seeing some of this first-hand, some of the things that 
scientists have been warning us about for years.
    Two summers ago I took a leave of absence from work, and I 
hiked from my front porch in Missoula, Montana all the way to 
Waterton, Alberta. It took me eight weeks. It was about 800 
miles, through some pretty wild country. I only crossed three 
roads. I went through the Bob Marshall, the Scapegoat, the 
Great Bear Wilderness, the Mission Mountain Wilderness, Glacier 
National Park and on up into Canada. I saw grizzly bears, heard 
wolves, saw mountain lion tracks, saw a lot of elk and mule 
deer. This country has some of the wildest country left in the 
lower 48, some of the best hunting and fishing and back country 
opportunities left in the world, I think.
    And even back here, in some of this most remote wild, 
precious country, I saw some of the things first-hand that 
scientists have been warning us about. A lot of the streams and 
rivers back there are very low and drying out. Trout were 
congregated in pools where they were very lethargic and having 
trouble with the heat of the summer and more susceptible to 
predation.
    I walked through large swaths of forest that were affected 
by pine beetle and saw where there large, intense fires that 
were beyond what historically occurred and did a lot of damage. 
I also saw a lot of dead and dying white bark pines up in the 
alpine country, which I am told is a critical food source for 
grizzly bears.
    So I saw a lot of stuff, and of course, when I went through 
Glacier National Park at the end of my journey, I could see 
obvious declines in the size of the glaciers there. I have a 
picture of me and my father being up at some of those glaciers 
20 years ago, and was able to compare some of those photos with 
photos I took during this trip. A lot of park rangers and 
scientists are now predicting those glaciers will be completely 
gone within 20 years.
    And I am not the only hunter and angler talking about this 
and seeing these changes. I talk to hunters and anglers 
throughout Montana who are saying the same thing. And as 
Senator Lieberman referred to earlier, the National Wildlife 
Commission just commissioned a survey looking at attitudes of 
hunters and anglers which I find pretty consistent with what I 
am seeing on the ground. Some of the highlights are 85 percent 
of us do believe we have a moral responsibility to do something 
about this issue; 80 percent of us believe the United States 
should be a leader in this issue; and 75 percent of us think 
Congress should take immediate action to do something about it.
    Hunters tend to be a pretty stubborn and conservative 
bunch. A lot of them are Republicans and Democrats and 
Independents. This is not and should not be a partisan issue. 
All the people I talk to, we may have our differences, but we 
all have a common concern there in Montana about what we are 
seeing on the land and how it is going to affect the thing we 
really cherish.
    So I join them in urging you to take some immediate steps 
in addressing this issue. I urge you to pass legislation that 
starts reducing greenhouse gas emissions and start helping us 
develop more responsible energy policies in this country that 
look at renewable sources of energy, alternative sources of 
energy, and more efficient ways of using energy that not only 
will help reduce greenhouse gases, but could help protect some 
of these wild places that we have also seen threatened by 
increased gas and oil development in the last 4 or 5 years.
    Also I think we need to take immediate steps to reconnect 
and restore and protect some of this critical wildlife habitat 
I am talking about. At Trout Unlimited we use our hand and 
fingers to illustrate some of this, particularly with rate and 
threatened species like bull trout. If this was a main stretch 
of a river going up to the little tributaries, which would be 
my fingers, up in the mountains, we have confined species like 
bull trout and west slope cutthroat to just some of these 
tributaries. They are already rare and threatened species. And 
with global warming, and we are seeing the reduction of water 
and increased flooding and things like that, they are going to 
be even more threatened.
    So we have to protect those tributaries, protect the 
habitat, reconnect that habitat with where they historically 
used to roam, then restore parts of that habitat so these 
wildlife are better able to adapt to the changes we are seeing 
on the ground. Therefore, I think any legislation, and I urge 
you that any legislation you do put forth includes funding for 
the State wildlife agencies to help us protect, conserve, 
restore and reconnect that habitat.
    Thank you for this opportunity.
    Senator Lieberman. Thanks, Mr. Stalling. Excellent 
testimony. I must say, hearing about some of the things you do 
makes me wonder whether I made the right career choice.
    [Laughter.]
    Senator Lieberman. The next witness is Dr. Lee Foote, an 
Associate Professor in the Department of Renewable Resources at 
the University of Alberta. He also serves as Chair of the World 
Conservation Union's North America Sustainable Use Specialist 
Group. Dr. Foote's work focuses on wildlife habitat creation, 
especially waterfowl disturbance and reclamation. It is a 
pleasure to have you here, and we look forward to your 
testimony now.

 STATEMENT OF A. LEE FOOTE, ASSOCIATE PROFESSOR, UNIVERSITY OF 
                            ALBERTA

    Mr. Foote. Thank you, Senator. I too thank you for the 
opportunity to speak to this group.
    I am speaking today as an individual and a professor at the 
University of Alberta. I am not a climatologist or a polar bear 
researcher. I spent 7 years working as a research ecologist for 
the U.S. Geological Survey, though. I am currently a dual 
citizen of Canada and the U.S. So it is germane to talk about 
climate change and polar bears, given the endangered species 
legislation that seems to be looming.
    In my 5 minutes, I would like to talk about three main 
points. First, there are limits to our ability to understand 
and predict population responses of polar bears in response to 
climate change. It is important that we not ask more of science 
than science can deliver. Dr. Lovejoy has pointed out very 
clearly that there are great uncertainties in this.
    Second, I would like to talk about the results of the U.S. 
policies and Endangered Species Act and to point out that there 
are very real costs to people that live in proximity to these 
polar bears, especially in Canada's north. These compound 
insults from climate change.
    Finally, hope to make some suggestions. Uncertainty. 
Predicting future population levels of any organism, especially 
mammals, with reasonable precision, is somewhere between 
difficult and impossible. I would like to quote from two peer-
reviewed papers in the Journal Climate Research. They are 
written by a couple of Canada's top ecologists, Dr. Charles 
Krebs, the author of the top ecology textbook in Canada, and 
Dr. Dominique Berteaux, who is a Canada research chair, similar 
to our NSF research chairs. The titles are Problems and 
Pitfalls in Relating Climate Variability to Population Dynamics 
and the second paper is Constraints to Projecting the Effects 
of Climate Change on Mammals.
    I would like to quote from this 2006 issue: ``Our best 
short- term strategy is to measure and try to understand the 
observed small scale changes in population parameters without 
pretending to be able to predict long-term consequences.'' The 
second quote: ``Complex hypotheses with predictions tens of 
years ahead are fairy tales. There is no limit to an 
ecologist's ability to explain events after the fact, and 
without rigorous scientific constraints, we will be little more 
than storytellers.''
    Reading the polar bear literature, it shows that it is both 
art, science, traditional knowledge and in the absence of data 
on many ranges of polar bears, it is a lot of necessity 
guesswork. Several well-studied populations are declining. 
Several lightly studied sub-populations are stable, and too 
many of our sub-populations, the 19 mentioned by Senator 
Inhofe, are poorly known or completely unsurveyed. When one 
considers the variability in climate predictions, ice 
responses, ringed seal distributions, polar bear adaptability 
and movement and human interactions, the probabilities are 
cumulative. I liken this to trying to stack four bowling balls 
on top of each other, let them fall and make some prediction 
which direction the top bowling ball will actually go. It won't 
be the same direction any two times.
    My second point today is a bit of a deviation. It relates 
to human welfare. Very roughly, there are approximately the 
same number of rural Inuit people living in Canada's polar bear 
ranges as there are polar bears, about 16,000, once you remove 
the larger towns. This is spread out over an area roughly the 
size of the sub-continent of India. In our media, we hear a lot 
about bears, but little about the Inuit. The bear is indeed an 
icon. In a book I edited 2 years ago called Conservation 
Hunting, we used a polar bear on the cover. It is used in soft 
drink advertisements and candy bar wrappers. And the media 
loves this imagery.
    But the Inuit have a day to day reality and a history of 
living with bears, of bear hunting and in some cases being 
hunted by the bears over the last 3,000 years. Polar bears are 
a powerful symbol and a meaningful component of Inuit culture. 
Now, they have become a meaningful component of their economic 
lives. The Inuit manage their polar bears well and with deep 
understanding. They have made use of, sometimes modifying, the 
best scientific data presented as well. They kill approximately 
400 polar bears each year and this hunt has great meaning to 
them.
    They also sell a much smaller number, between and 25 
percent of these hunts, to sportsmen, like some of the 
individuals have mentioned here, the sporting tradition. I too 
am a sportsman. I will never hunt a polar bear, probably, and 
have really no desire to. But some do. This brings in crucial 
dollars to the Inuit culture, between $650,000 and $1.5 million 
per year. The hardest hunt on earth, conducted on dog sleds in 
sub-zero weather, 10 to 14 day hunts, which is truly a 
pivotal--it is like going back in time, is the way it is 
described.
    Under this regime, polar bears have been existing for, 
well, at the levels of 20,000 to 24,000, is what the data says, 
since 2001, which is about as far back as the truly trustworthy 
data goes. Ordinarily, I would recommend a prudent and 
precautionary principle. However, this impinges so heavily on 
individual cultures that I think we need to take a second look 
at the listing of ESP species.
    My third point is recommendation, and I have five quick 
ones. First, continue to build on the excellent nodes of polar 
bear research science that are ongoing right now. These include 
people like USGS's Steven Amstrup, Canadian Wildlife Services' 
Ian Stirling, University of Alberta Andy Derocher, Nunavut 
biologist Mitch Taylor. These folks are asking the right 
questions for us to understand and make informed decisions.
    Second, I would suggest we fund a wider study of sub- 
populations to bring them to the management forefront of 
science. Third, hold off on top-down policies like Endangered 
Species Act at this time. They are redundant, cumbersome, 
divisive, and appear indefensible scientifically when they are 
moving this forecast out 45 years. They may backfire, as well. 
We need to avoid simple reductionist black and white 
statements, although the media and the court of law love this 
approach. We live in a an area of shades of gray on this issue.
    Fourth, empower bottom-up policy that involves traditional 
ecological knowledge, hunter trapper organizations, in addition 
to the excellent work by the polar bear technical committees. 
And finally, fifth, use and modify existing management 
structures to protect critical habitat. And there are many of 
these.
    All of these suggestions are compatible with simultaneously 
reducing emissions. Senator Boxer, you will be pleased to know 
that the Society of Wetland Scientists, on which I serve, will 
have a carbon neutral annual meeting in Sacramento this year. 
And I voted for that. I support that.
    We need to be aware that treating polar bear issues is 
treating the symptoms of climate change, though, and not the 
disease. Polar bears are a response variable, not a driver in 
this case. As symbolic as they might be, we need to keep that 
in mind.
    Thank you very much.
    Senator Lieberman. Thanks, Dr. Foote, for your testimony. I 
appreciate it.
    Our final witness on this panel is Dr. Brendan Kelly, who 
is an Associate Professor of Marine Biology and the Associate 
Vice President for Research at the University of Alaska. For 30 
years, Dr. Kelly has studied Arctic wildlife, especially ice-
associated marine mammals.
    Dr. Kelly, thanks for making the trip, and we look forward 
to your testimony now.

  STATEMENT OF BRENDAN P. KELLY, ASSOCIATE VICE PRESIDENT FOR 
                 RESEARCH, UNIVERSITY OF ALASKA

    Mr. Kelly. Thank you, Senator Lieberman and members of the 
committee. I appreciate the opportunity to testify this 
morning.
    My own university training includes a bachelor's degree 
from the University of California, a master's degree from the 
University of Alaska and a Ph.D from Purdue University, all in 
biology. But my real world teachers were Yupik and Inupiaq 
Eskimo hunters. For the past 30 years, I have studied Arctic 
wildlife, especially ice-associated marine mammals, whales, 
seals and walruses.
    The Arctic ecosystem is dominated by seasonal sea ice, 
which at least earlier in my career covered as much as 14 
million square kilometers. That ice strongly influences the 
climate, oceanography and biology of the Arctic ocean and 
surrounding lands. One consequence of our warming climate is 
the melting of that sea ice.
    The ecological implications start with a specialized type 
of algae adapted to very low light levels and able to grow in 
and on that sea ice. Blooms of those algae on the under-surface 
of the ice are the basis for an elaborate food web leading 
through zooplankton and fish to seals, whales, polar bears and 
humans.
    The ice also strongly influences winds and water 
temperature, both of which are key determinants of upwelling, 
whereby nutrient rich waters are brought up to depths where 
there is sufficient sunlight for phytoplankton to make use of 
those nutrients.
    The Bering Sea produces our Nation's largest commercial 
fish harvest, as well as supporting subsistence economies of 
Alaska Natives. Ultimately, the fish populations depend on 
plankton blooms, which in turn are controlled by the extent and 
location of the sea ice in the spring.
    Still higher in the food web are walruses and seals, for 
which the ice provides an important resting place. In fact, the 
greatest number of seal species occurs in the ice-covered polar 
seas. Seals and walruses have played and continue to play key 
roles in Eskimo subsistence economies. How those marine mammals 
will be impacted by climate change reflects their species-
specific relationships to ice and snow.
    I would like to illustrate with two examples. Walruses feed 
on clams and other bottom-dwelling organisms. Over a nursing 
period of two or more years, the females alternate their time 
between attending their calf on the ice and diving to the 
bottom to feed themselves. The record ice retreat observed in 
recent summers has extended the ice north of the shallow 
continental shelf. The result is the ice surface on which the 
calves are nurse is over water too deep for the female walruses 
to feed. The female thus must choose between feeding their 
calves or themselves.
    Ringed seals can dive and feed at greater depths. And their 
vulnerability to climate change involves their dependence on 
the snow cover on the surface of the ice. Ringed seals give 
birth in snow caves excavated above breathing holes they 
maintain in the sea ice. The snow caves protect the pups from 
extreme cold, and to a certain extent, from predators. As the 
climate warms, however, snow melt has been arriving 
increasingly early in the Arctic. And the seals' snow caves 
collapse before the pups are weaned. Declines in ringed seals 
will impact other species, not least polar bears, for which 
they are the major prey.
    Whether the changes underway today will be survived by 
walruses, seals, polar bears, Eskimo culture, our economies and 
ways of life will depend critically on the pace of change. 
Ecosystems have changed before. Species have become extinct 
before. What is critically important about our changing climate 
is the rapid rate of change and its predicted acceleration. 
Adaption, biological and social, requires time for adjustment.
    The current rates of climate change, however, are very 
steep. Witness that the summer ice cover has decreased 26 
percent during my career.
    If the biological and social environments change too 
rapidly, species and societies will not be able to keep pace. 
Thank you for your attention.
    Senator Lieberman. Thank you, Dr. Kelly, for those examples 
that you have observed, and also for the warning at the end.
    Before we do get into questions, I do want to indicate that 
maybe I should notice you, Mr. Stalling, on this, that Larry 
Schweiger, President and CEO of National Wildlife Federation, 
asked that we submit testimony on his behalf, with thanks to 
you for testifying. Same for Jamie Rappaport Clark, who is 
Executive Vice President of the Defenders of Wildlife.
    [The referenced material can be found on page 46.]
    Senator Lieberman. We will do seven minutes of questioning 
each and see where that gets us.
    Dr. Lovejoy, let me begin with you. In your testimony, you 
mentioned that the shuffling of the ecological deck caused by 
unchecked global warming will favor opportunistic species, such 
as weeds and pests and diseases. I wonder if you could expand 
on that statement at this point, and also indicate what it 
might mean for agriculture in our country.
    Mr. Lovejoy. Well, it is a pretty standard topic that, in 
disturbed ecosystems, invasive species seem to do particularly 
well. And much less so in relatively pristine, highly diverse 
biological communities.
    So we are actually seeing that already with the wooly 
adelgid in Virginia, we are seeing it with the pine bark beetle 
in our northwestern forests.
    Senator Lieberman. Say a little bit more about what you are 
seeing in Virginia.
    Mr. Lovejoy. Well, the wooly adelgid, which is an invasive 
species from Europe, I think, originally, particularly goes 
after hemlocks.
    Senator Lieberman. What is it, actually?
    Mr. Lovejoy. It is an insect. And it is sort of a white, 
fuzzy little thing. But it attacks coniferous trees. The 
mortality rate from the wooly adelgid has become a serious 
problem in Virginia.
    Senator Lieberman. And the climate has done that, we think?
    Mr. Lovejoy. It is because the night-time temperatures have 
been warmer, and as a consequence, the populations don't get 
knocked back as much and kept in relative balance. In the case 
of the northwestern forests with the pine bark beetle, that 
actually is a native insect pest. But again, the balance has 
been tilted highly in favor of the pest.
    Senator Lieberman. By the temperature?
    Mr. Lovejoy. By successive mild winters and higher night-
time temperatures.
    Senator Lieberman. Right.
    Mr. Lovejoy. So basically we can expect some of those 
things to spill over into agriculture. We may not be able to 
predict which ones. But it is highly likely.
    Senator Lieberman. Thank you.
    Dr. Mann, as someone who follows the temperature, seasonal 
timing and weather pattern changes that other scientists have 
been observing and predicting for Virginia, in the case of 
global warming continuing and expanding and increasing, can you 
say that those predictions include increased water temperature 
in the Chesapeake Bay, and assuming that is so, can you list 
again some of the impacts that you believe warmer water in the 
Chesapeake Bay would have on species that inhabit the Bay?
    Mr. Mann. I think there is a general consensus that we will 
see increasing temperatures in the Chesapeake Bay, and there 
are two effects, if you are looking at them, at the 10,000 feet 
level. Normal winters, cold winters typically knock back many 
of the diseases, so that when the warmer summers come, those 
diseases start to progress. If you have warmer winters, those 
diseases often get a foothold earlier in the year and the sorts 
of things that they attack, oysters and fish, are subject to a 
greater disease stress through the summer, simply because of 
this temperature cycling.
    Higher temperatures in the summer. The Chesapeake Bay is an 
interesting system, because it is an estuary. Saltwater comes 
in from the ocean, freshwater comes down from the watershed. 
The freshwater is less dense than the saltwater, because there 
is typically not much wind, the fresh water tends to sit over 
the top of the denser sea water. It doesn't mix.
    What happens then is that the oxygen in the lower part of 
this gradually gets depleted by biological activity and you get 
an oxygen-free zone, effectively a dead zone in the deep water. 
Clearly, anything that is down there or should be down there no 
longer exists. In warming scenarios, this dead zone sets up 
earlier and it gets bigger.
    But the actual occurrence of that dead zone forces other 
things to happen. Animals that typically would go into that 
dead zone or into those deeper waters which are typically 
cooler, lose this lower temperature refuge. I gave the example 
of striped bass, an absolutely magnificent fish. We know that 
about 80 percent of the striped bass in the Chesapeake Bay are 
infected with a bacterium called mycobacterium. This is 
typically at very low levels and it doesn't manifest itself, it 
doesn't alter the health of the animal.
    If, however, you force these animals into the shallow 
waters in the summer where it is warmer, one of the things that 
we have a strong evidence trail for at this point in time, is 
that that disease starts to proliferate. You only have to push 
the temperature up a little bit, and what you see is 30, 40, 50 
percent of these magnificent fish occurring on anglers' lines 
with large red lesions on them. They are really rather painful 
to look at.
    This is the result of a small temperature change. But it is 
this chain-like effect that starts with stratification and 
increased temperature.
    The Chesapeake Bay sits at the southern end of the 
distribution of a species called zostera, it is eel grass. Most 
of us don't think very much about eel grass. But when you go 
out into the shallows in the Chesapeake Bay, it forms little 
forests, literally about this deep. Eel grass is an 
extraordinarily important habitat. It is where small fish and 
small crabs go to hide. They are hiding in there so that they 
can grow, so that they can move out when they get a little bit 
bigger and not get taken by the predators.
    In part because of the distribution of eel grass in this 
north-south direction, in the summer of 2005 when we had an 
unusually warm summer in the Chesapeake Bay, the water went up 
to 30 degrees centigrade. I apologize, I think in centigrade, 
not Fahrenheit.
    Senator Lieberman. Compared to the norm?
    Mr. Mann. To the norm, which is about 28. A couple of extra 
degrees. What you saw was a large dieback in this habitat. The 
problem is that eel grass grows very slowly in terms of 
building a bed. One warm summer, the loss of a lot of habitat, 
the prospect of a long time for it go grow back, and if it 
doesn't have more cool summers, it won't grow back. What that 
means is that the crabs and the fish that typically use it as 
habitat have to look for other pieces of real estate, and they 
don't find any that are as accommodating.
    You could say, well, won't other grasses move in, aren't 
there other grasses that do this? There are other grasses that 
potentially might move in, but they are different in their 
nature. They form small, ephemeral stands that last for a year 
or two and then move on.
    So rather like we have seen the suggestions that pine bark 
borers actually destroy parts of pine forests, large stable 
pieces of community over long periods of time, that it takes a 
long time to grow back after disturbance, the eel grass beds 
are much the same. Very small temperature changes, very 
significant losses, very long time periods for them to grow 
back. Very long time periods for critical habitats, fish and 
juvenile crabs.
    So when we go through this list, what we are seeing is not 
sort of a gradual change. You see what is a step function. You 
go past a certain temperature for a certain time and lots of 
things start changing, and they have domino effects.
    So in the Chesapeake Bay there are a number of these. And 
of course, not the last of which and not the least of which are 
the oyster diseases. As the good Senator noted, large amounts 
of money have been invested in trying to restore the ecosystems 
of the Chesapeake Bay. The oysters are actually central to 
that. The oysters at this point in time are challenged by not 
one but two very significant diseases. The activity of those 
diseases is strongly related to temperature. As the temperature 
goes up in the summer, the diseases get worse.
    And indeed, those diseases, one of which used to have a 
distribution from the Chesapeake Bay down into Texas, over the 
last 10 to 15 years, we have seen the northern distribution of 
that disease go all the way to Long Island Sound. Long Island 
Sound has gone up by about 1 and a half degrees in the summer. 
Very small changes, very large effects, and definitely not 
linear, long time to recovery. The Chesapeake Bay is a 
laboratory in which we see lots of these.
    Senator Lieberman. That is very compelling, because it is 
evidence you have observed. I appreciate your testimony. My 
time is up.
    Senator Warner.
    Senator Warner. I would like to yield to the distinguished 
Ranking Member, and then I will follow in sequence.
    Senator Inhofe. I thank Senator Warner for that gesture. We 
are both working on the Armed Services, and there are events 
with our Chairman on the Floor right now, that are taking 
place.
    I was going to ask a question that I am not going to ask 
now, because I think it would probably take up too much of the 
time for my line of questioning. But during my opening remarks, 
I did refer to some of the individuals that have changed their 
position, some of the well-known scientists, climatologists, 
meteorologists, geophysicists and others who had very strong, 
they were certain about their position at one time, then they 
changed their position. I mentioned Claude Allegre from France.
    There is also David Bellamy from the U.K. who was 
absolutely certain of his position, and he has now reversed 
that as a result of the science that he has looked at over the 
past few years. Patrick Moore, who is one of the co-founders of 
Greenpeace, went through the same conversion. And just today, I 
found out about, a guy that I have been following, his name is 
Nir Shariv, he is the top astrophysicist in Israel, and he was 
one of them who was certain in his position also that it was in 
fact man-made contributions that are causing climate change.
    So with all of this that is taking place, my only position 
has been, let's be real sure. If we are going to undergo the 
financial devastation in this country that, according to the 
Wharton Econometric Survey and others have said would happen, 
with some of the things with the greenhouse gases, or with the 
regulation of CO<INF>2</INF>, we want to be sure that the 
science is right. I go back and look at some of the scientists, 
such as Tom Wiggly, who happened to be Al Gore's scientist, 
after an exhaustive study, that if all of the developed Nations 
signed onto Kyoto and followed its emissions requirements, it 
would only reduce the temperature over a 50-year period by 6/
100 of 1 degree centigrade.
    So you folks are scientists and we are not. But we have to 
look at what the scientists are saying. And let me just deviate 
for a minute, Mr. Stalling, I was listening to you. Back when I 
enjoyed life, and I was about your age, I used to do the same 
things that you are doing. So that was most enjoyable, and I am 
quite envious of your lifestyle now.
    This morning, there was an article that you probably have 
missed, because it just came out in Newsweek this morning, by 
George Will. He said over the millennium, the planet has warmed 
and cooled for reasons that are unclear, but clearly were 
unrelated to SUVs. Was life better when ice was a mile thick 
covering Chicago? Was it worse when Greenland was so warm the 
Vikings were farming there? Are you sure that the climate at 
this particular moment is exactly right and that it must be 
preserved no matter the cost?
    So rather than to ask you, if you were to have your choice 
of where a climate should be right now, would it be today's, or 
would it have been back in the 1250s during the Medieval 
warming period, where some believe it was warmer than it is 
today? Or perhaps the 1650s during the little ice age or 
perhaps 1950 immediately following a period of warming and 
going into a cooling period? Maybe for the record you could 
send that back to me.
    But I do want to ask Dr. Foote some questions. The reason I 
want to ask this, we are talking about polar bears, and 
certainly you can't look at the pictures that were shown by my 
good friend, Senator Boxer, without being sympathetic. However, 
when there is a discussion as to going into a 1-year process, 
determining whether or not to list the polar bear, I did start 
reading extensively. Now, in my opening statement, Dr. Foote, 
you heard me say, of the 19 populations that 14 were relatively 
stable, and that perhaps the one population that is being used 
right now as the model is that of western Hudson Bay, where I 
concluded, after looking at it, we don't have the exact time 
frame, but we have 5 years and 17 years, that approximately the 
reduction in population now is about the same as it would have 
been if hunting had not take place.
    Now, also the fact that in the 1950s, 50 years ago, the 
population has increased from 10,000 to approximately 25,000, 
more than doubled over that period of time. Do you agree with 
my analysis of the statistics that we had?
    Mr. Foote. There is some merit there. However, the Polar 
Bear Technical Committee, which is the brain trust of all polar 
bear research at present, is meeting at Edmonton, Alberta 
today. Just last week I called one of the participants and 
asked specifically about the early data. He said that those 
were, the 1960s and 1970s estimates are really not completely 
to be trusted. They were a rough index, 2001 is where our best 
data point comes. And it shows, it does show some moderate 
increase, even between that period.
    Senator Inhofe. Between 2001 and today?
    Mr. Foote. And today, 2006 was the last set of surveys.
    Your reference to western Hudson Bay, I have to compliment 
Ian Stirling on an exquisite piece of research and the program 
there. But it has to be kept in context. That is the 
southernmost population of polar bears and should be the first 
one to be affected and possibly affect----
    Senator Inhofe. So range shift, this might be an example of 
range shift?
    Mr. Foote. Well, it may be, and that is the question that 
was so eloquently put by the previous speakers about the oyster 
diseases moving northward. It is a bit simplistic, but I will 
use the analogy of a belt around the circumpolar Arctic, that 
the belt doesn't necessarily get narrower, it may just shift 
upwards and back. There are many examples in the ecological 
literature and within conservation biology theory of this 
happening. But that is an uncertainty at this point.
    Therefore, my plea for greater research dollars to 
understand possible increases in bear population to the north, 
it could be compensatory with the losses to the south. It is 
one of the models. Is it absolute loss? Is it a range shift? 
And I would also welcome input or thoughts after this meeting 
from somebody that actually has studied ice, here sitting to my 
left, to know whether conditions actually can improve in the 
north for ringed seals to be able to become accessible to polar 
bears, whether multi-year ice conversion to annual sea ice in 
some situations, such as Davis Strait, could become a net 
positive.
    But these are the questions, and therefore my plea for 
greater research.
    Senator Inhofe. I see. And you have expressed concern that 
the proposed listing of the polar bear due to climate change is 
really about energy policy. Could you elaborate on that?
    Mr. Foote. I have underlined that, that was brought to my 
attention by the actual petitioners in a recent article. I have 
the quote here, December 2006, ESP listing decision is the 
reference. And one of their lead counsel said, it gives me hope 
that we can get the United States to reduce greenhouse gas 
pollution before it is too late to save the Arctic. That was in 
reference to the petition. So it started a logical thought 
process that maybe there was some other agenda at work here.
    Senator Inhofe. I see. Thank you very much, Dr. Foote, and 
the whole panel. This has been very enlightening to me.
    Thank you, Mr. Chairman.
    Senator Lieberman. Thanks, Senator Inhofe.
    Senator Boxer.
    Senator Boxer. Thank you. Dr. Foote, thank you for your 
comments about going to Sacramento in an environmentally sound 
way.
    Mr. Foote. I am looking forward to that meeting.
    Senator Boxer. You signed a letter in 2002, along with 
dozens of Canadian scientists, that said, ``We must reduce 
greenhouse gas emissions as rapidly as possible. Contrary to 
the views often portrayed by the press and industry 
spokespersons, there is little disagreement in the scientific 
community about climate warming.'' Do you stand by that?
    Mr. Foote. I am full of questions, Senator Boxer.
    Senator Boxer. Do you take that back, then? I don't have a 
lot of time, I just want to know if you have changed your mind 
since then.
    Mr. Foote. It has evolved substantially, and it will 
continue to evolve.
    Senator Boxer. So you don't stand by the statement you made 
in 2002?
    Mr. Foote. I would stand by a modified version of that.
    Senator Boxer. Okay, that is fair. Modified version, okay.
    Now, it is true that you work with the International Union 
for Conservation of Nature and Natural Resources, often known 
as the World Conservation, Union, correct? And you were a 
regional chair for North American Within the Sustainable Use 
Specialist Group, is that correct?
    Mr. Foote. That is correct.
    Senator Boxer. Okay. Is it not true that your position is 
directly contrary to the International Union for the 
Conservation of Nature and Natural Resources?
    Mr. Foote. I speak as an individual.
    Senator Boxer. Yes, isn't it true that they disagree with 
you?
    Mr. Foote. I do not know their position.
    Senator Boxer. Well, their position is that the polar bear 
is listed as vulnerable. The Polar Bear Specialist Group 
determined that due to decreasing sea ice because of global 
warming, the polar bear is in decline and listed as vulnerable. 
I just wanted to make the point that you stand alone from that 
group that you were a part of.
    I also want to put in the record parts of this review, if I 
can, Mr. Chairman. It is the analysis of our Fish and Wildlife 
Service, dated December 21, 2006.
    Senator Lieberman. It will be entered into the record 
without objection.
    [The referenced material can be found on page 129.]
    Senator Boxer. Certain pages I want to put in here, it is 
an amazing picture of a polar bear here, and then on the 
inside, they say, observations, and these are peer reviewed, 
have shown a decline in late summer Arctic sea ice extent of 
7.7 percent per decade, and in the perennial sea ice area of 
9.8 percent per decade. And it goes on. The fact that our 
Administration would, before they even utter the words climate 
change or global warming, would come out with this, I think, 
Dr. Foote, it puts you at odds with a tremendous number of 
scientists here.
    I want to show you another photograph, if I can, and I am 
sorry Senator Inhofe has left, because I know he loves these 
photographs. This is a photograph of some baby polar bears and 
how they--where's Jeff? It is the babies. The babies in the 
den.
    Where's Jim Inhofe when I--Andrew? Could you call Senator 
Inhofe back. I wanted to show him this photograph.
    [Laughter.]
    Senator Boxer. What happens when this ice goes away? It is 
serious business. And Dr. Foote, I know you care about the 
hunting of the Indian tribes, and I have great sympathy for 
their way of life, believe me. But at some point, science is 
science and we have to all deal with the science.
    So I am going to move on. I want to talk to Dr. Lovejoy. 
First of all, Mr. Chairman, I am going to leave after these 
questions, which I am sure Dr. Foote will be happy to know.
    [Laughter.]
    Senator Boxer. This is the best panel. I mean, as we were 
saying quietly, they're just, they're understated, they're 
speaking from their heart, from their mind and from their 
experience. Dr. Lovejoy, could you explain to me the issue of 
the oceans acting as a sink for carbon, and how much do the 
oceans absorb of the carbon? I know some it is man-made, some 
of it is natural. But do you have a picture of that, and what 
is the impact of this continuing action of the oceans to act as 
a sink? And at what point will it stop acting as a sink? Will 
there be a point where they can't take in any more?
    Mr. Lovejoy. I can't give you all the precise numbers, but 
I can get them for you. The reason we don't have a lot more 
climate change is because the oceans have been taking up a huge 
amount.
    Senator Boxer. Is it about 30 percent?
    Mr. Lovejoy. It is at least 30 percent. They have been 
taking up a huge amount of heat and a huge amount of 
CO<INF>2</INF>. And a certain amount of that has translated, as 
I mentioned, into a rise in acidity. We remember acid lakes and 
acid rain, and we dealt with that pretty well with a great----
    Senator Boxer. In the air.
    Mr. Lovejoy.--market mechanism, and sulfur in the coal. But 
in this case, you are talking about two-thirds of the earth's 
surface changing its basic chemistry. It is simple high school 
chemistry.
    Senator Boxer. Well, I wanted Senator Warner, because he is 
a fisherman, to hear this again. So right now, the oceans are 
absorbing at least a third of the carbon dioxide, and it is 
causing more acid. That is having an impact on the sea life. 
And how is that showing up, if it is showing up right now?
    Mr. Lovejoy. This has been a bit of a surprise to the 
scientific community. You didn't even hear about it 2 or 3 
years ago. They actually so far have not picked up any 
immediate effects. But what we do know is that the calcium 
carbonate equilibrium, which just tens of thousands of 
different kinds of species used to build their shells, whether 
they are corals or clams or oysters or tiny little things which 
exist in the trillions as basis of food chains, at a certain 
point many of them will have difficulty just constructing their 
shells. If it continues further, they reach a point in which in 
fact their shells will go into solution while the animals are 
still alive.
    Senator Boxer. Oh, boy, so anything with a shell.
    What about, and anybody who wants to comment on this last 
question, what about the warming of the oceans? So we have an 
impact of the acidity and then, is there a separate impact with 
the warming?
    Mr. Lovejoy. Let me just lead off. The first parts of the 
ocean which have shown themselves to be particularly sensitive 
to the warming are coral reefs. Corals are basically a 
partnership between an algae and an animal. Just the smallest 
increase in water temperature will cause the coral to expel the 
alga, so you get what are called bleaching events. And all of a 
sudden, these extraordinary technicolor environments turn into 
a black and white movie.
    Those are happening more and more frequently, and the issue 
is, how soon will we see coral reefs that have so much, such 
frequent bleaching that they can't recover?
    Senator Boxer. Thank you. Anybody else want to add to that. 
I still have a few seconds left.
    Mr. Mann. I think that is the prime example that we all 
see. I think the issue about the redistribution of species 
becomes a second part of this. Again, it is this issue of when 
you redistribute species, they also get out of synchrony with 
one another. What can typically happen is that you have food 
blooms, food species that are necessarily connected to seasonal 
daylight, typically over evolutionary time, the things that eat 
those food species have become in synchrony, but often the 
thing that synchronizes them is temperature. So if you are 
looking at something changing something else, the first one may 
be sunlight, the second one might be temperature.
    If you change the synchronizing function in the second 
part, it misses the food bloom. And there are in fact 
documented cases of this, it has been a debate in the fisheries 
literature for over 100 years, called a simple mis-match 
theory. What you are liable to see is larger numbers of mis-
matches. When you see larger numbers of mis-matches, you see 
failures to recruit, you see failures of year class in 
fisheries. That has not only great ecological effects, it 
potentially also has very significant economic effects. It 
doesn't take much of a temperature change to do this.
    Senator Boxer. A mis-match?
    Mr. Mann. A mis-match.
    Senator Boxer. Thank you.
    Senator Lieberman. Thanks very much, Senator Boxer, for 
spending the time with us and for your continuing commitment to 
see this committee through to some accomplishment on this 
subject matter.
    Senator Warner, it is all yours.
    Senator Warner. Thank you, Mr. Chairman. I would like to 
take my round and then following your questions, maybe a few 
more.
    Just again on a personal note here, I am not much of a 
traveling Senator, at least other than to Iraq and Afghanistan, 
where I have been going constantly for 3 years, as most of us 
have, too. But I was thinking, Mr. Chairman, and I say to both 
distinguished chairmen, I look back on the mistakes I have made 
in my 29 years in the Senate. And one was the failure to join 
John Chafee when he was chairman of this committee on some 
marvelous trips he put together. I remember I wanted to go down 
and study the rain forest in Brazil and others, where he 
actually went out and put a hands-on attitude.
    And I am thinking this subject is so important, and I will 
put this question to each of you to answer in your own way, is 
there a possible benefit if members of this committee, maybe 
you could assign some members to do one and some members to do 
another, if you were to organize a field trip somewhere 
geographically in your own area where we could go out and see 
with our own eyes, possibly, some of the facts that you bring 
to bear.
    And probably more importantly, I talked to some of the old- 
timers. I am particular partial to old-timers now.
    [Laughter.]
    Senator Warner. But I remember going with my father into 
the upper reaches of the Blue Ridge Mountains as a small boy, 
trout fishing. And the trout were in abundance. Today, the acid 
rain has virtually removed them from many of the streams in my 
beloved Blue Ridge Mountains. Because those mountains are in 
the direct path of the effluent that comes out of the 
industrial valleys of American and the coal burning facilities, 
that is another whole story. I am not here to talk against 
coal, or I would be voted out of office tomorrow, given my 
State's position in coal. But I have fought for many years on 
trying to clean up these plants.
    Regrettably, if I may digress a minute, literally millions 
and millions of dollars, Bob Byrd and I and the other coal 
States have taken out of the Senate to study clean coal 
technology, they are building a brand new coal plant, I mean a 
big coal-fired plant in Virginia, and they are not spending a 
dollar on trying to clean up the effluent. Now, maybe some 
modification, I understand there is something in that plant, 
isn't there? Well, I can't even get the staff to talk about it. 
Maybe I had better correct the record. But none of this clean 
coal technology is coming into effect on the coal plants.
    But anyway, back to my question. If for instance my good 
friend, my new friend and going to be a good one, Mr. Stalling 
here from Montana, I would be glad to head the mission to 
Montana.
    Senator Lieberman. I was just going to say that I was going 
to head the mission to go trout fishing with Mr. Stalling.
    [Laughter.]
    Senator Warner. I have been to the Antarctic and I have 
seen the polar bears. You go up there.
    [Laughter.]
    Senator Lieberman. Dr. Kelly, I will see you.
    Senator Warner. And talk to some of the old-timers who with 
their own eyes, talk about all this scientific data, have seen, 
as my father if he were living would vouch and I can vouch, we 
have seen it in our own States through the years, those of us 
who still walk through the hills. So that we can bring back to 
the Senate some of our own ideas.
    Now, I will start out here in order. Do you think a field 
trip, you could organize it on your particular subjects, to 
some geographic area in this country that would be of value?
    Mr. Lovejoy. Absolutely. Seeing is believing.
    Senator Warner. What would we see?
    Mr. Lovejoy. I think it would be important to start off 
with something really dramatic, like the dying forests of the 
northwest from that pine bark beetle.
    Senator Warner. I have seen that recently.
    Mr. Lovejoy. There are some stretches in northern Arizona 
where the trees are just gone because of climate change 
drought.
    Senator Warner. All right, so you could put together for 
maybe a two-day trip or something, something that would be 
beneficial, and you would round up a couple of old guys like 
myself who could actually relate to it, is that right?
    Mr. Lovejoy. Absolutely.
    Senator Warner. Good. Mr. Mann.
    Mr. Mann. I would be delighted to host such a trip. I can 
take you everywhere from the remains of the current SAV, the 
submerged aquatic vegetations, if there are any striped bass 
around, we will give you a rod and reel, and failing that we 
will cheat and use a troll net. If I can get my friends in the 
Virginia Department of Agriculture and Consumer Services, very 
good friends who have worked with me on this, we can certainly 
find you some places where there are some invasive species and 
we can maybe, if there is enough time, even get you into the 
forestry areas. I would be happy, happy to host such a trip.
    Senator Warner. Mr. Stalling.
    Mr. Stalling. Oh, yes, I would be thrilled to take people 
up to the Rocky Mountain front where the Great Plains meet the 
Rockies on the east side of Glacier National Park, which is a 
place where legislation was recently passed, in an effort led 
by hunters, to protect from irresponsible gas an oil 
development. But there are impacts there as far as the loss of 
white bark pine and the declining glaciers and impacts to some 
of the last strongholds for pure strains of west slope 
cutthroat trout, like Badger Creek and Two Medicine Creek that 
seem to be drying up every year.
    Senator Warner. All right, seriously, I sent Mr. Stalling a 
note that in 1943, in preparation for trying to build myself up 
to go into World War II, which I did the last year, my father 
bought me a train ticket to Missoula, Montana, your town, and I 
got a job with the Forest Service as a firefighter. It is 
interesting, I went back with the Forest Service here 2 years 
ago, out at Coeur d'Alene, to find our camps, which were hard 
to find. I saw the devastation to the white pine from that 
beetle. It is tragic, these magnificent trees just dying as far 
as the eye can see. That is one of the most valuable pieces of 
lumber that we have.
    Mr. Stalling. Another value to going up there would be you 
would be able to meet a lot of hunters and anglers and tribal 
leaders and ranchers and all kinds of folks who are very 
concerned about this issue.
    Senator Warner. All right. I am talking about people who 
have seen it with their own eyes.
    Mr. Foote. Senator Warner, you may have some border issues 
getting into Canada with the recent flux of movement back and 
forth. So I am going to nominate Dr. Kelly to be our tour guide 
for the Arctic, where you can talk to the ultimate old- timers, 
the Inupiat and the Nuvialuit individuals whose direct linage 
goes back 3,000 years in close concert with climate change and 
polar bears.
    Mr. Kelly. Senator Warner, I would be happy to introduce 
you to some elders, that is how the natives refer to the old- 
timers, as you put it----
    Senator Warner. You ought to hear what they call me around 
here.
    [Laughter.]
    Mr. Kelly. Well, these are gentlemen----
    Senator Lieberman. We call him Senator, or Mr. Chairman.
    Senator Warner. The old bull they turned back into the back 
40 acres here recently. Go ahead.
    [Laughter.]
    Mr. Kelly. I would be happy to introduce you to a gentleman 
who received shotguns from their fathers as well and have fond 
memories of learning to hunt from their fathers. And I think 
you would be impressed to hear their descriptions of the 
changes in their environment in their lifetime. And to see the 
sadness in their eyes when they talk about the likelihood that 
their children will not experience it the way they did, because 
the changes are so profound. I think I detected a bit of 
disinterest in going to the Poles again on your part, but I 
think you would find these people very eloquent in their 
explanations of what is really happening.
    Senator Warner. I thoroughly enjoyed both of my trips, both 
to the North and South Pole. But that is when I was Secretary 
of the Navy, had my own plane and my own submarine to punch up 
through the ice. It was a little easier.
    [Laughter.]
    Mr. Kelly. I can't compete with that.
    Senator Warner. Well, there we are. I think we have a 
challenge.
    Senator Lieberman. Yes.
    Senator Warner. And I want to get into some other 
questions, but you go ahead and then----
    Senator Lieberman. Oh, you go right ahead.
    Senator Warner. Well, I wanted to come back.
    Senator Lieberman. Let me just say what a pleasure it is 
going to be to work with you on this Subcommittee. I am already 
enjoying it. So thank you for your interest.
    Senator Warner. This is an exciting panel. Some of these 
scientists are going to come in here and we are going to have 
to get anti-doze pills.
    [Laughter.]
    Senator Warner. We really need, there is nothing like 
getting out of Washington. We all think this is the pinnacle of 
all knowledge. Well, it isn't. We have to get out and do a 
little hands-on.
    Senator Lieberman. Yes, sir, I totally agree. I want to 
respond briefly before you do your questions, and we will start 
the clock back at seven minutes.
    It is a great idea. Senator Boxer, before she left, said 
she is planning a trip to Greenland. I think it would be a 
great thing just to start in Virginia for a day, right next 
door, easy enough to get there and then we will systematically 
visit the other spots. Thank you for that suggestion.
    Senator Warner. Thank you. Well, let's see what we can do, 
because I just think that we need anecdotal, I mean, all of 
this scientific data, and I don't disparage scientists, but to 
get our attention of our colleagues, just get them to go back 
and talk to their own constituents. Just ask all the other 98 
Senators to pack up and make their own inquiries.
    I am fascinated with Dr. Mann's story about the dead zones 
in Chesapeake Bay. As I have traveled here in the last couple 
of years, I have been hearing about hat. Is there any evidence, 
now let me give you a point, I was privileged to get through a 
piece of legislation here recently to provide a little modest 
Federal funding to support going back and taking Captain John 
Smith's diaries and go up to all the inlets in 1608. He kept 
prolific diaries.
    Do you have any record of the dead zones being detected 
years back, or is it a phenomena that has come on here in the 
past 10 or 15 years or whatever period of time?
    Mr. Mann. I think the problem with most of the things in 
science is that you actually don't know if things are there 
until you actually go and look. I also have looked at some of 
John Smith's diaries, and they are wonderful natural history 
records.
    The problem with the dead zone though is that you really 
have to go out into the Chesapeake Bay and take instrumentation 
that you can put to the bottom to measure the oxygen. 
Unfortunately, John Smith didn't have such instrumentation 
available.
    Senator Warner. But he could have seen the striped bass 
with these lesions on them, which you and I have seen.
    Mr. Mann. He could have seen if they had been there. In 
fact, they have really become more prevalent over the last 
decade or so. Prior to that, mycobacteriosis, or myco, as it is 
common called, was not something that was very prevalent and it 
didn't cause much concern. When it did arrive on the proverbial 
scene, it was really quite widespread and it was a very sudden 
event. I think lots of individuals were worried about what this 
might be. A certain microorganism called physteria was 
originally invoked. It turns out not to be the case.
    But I think the striped bass observations over the past 
decade are very typical of the sorts of things that we expect 
to see, not just in aquatic systems, but everywhere else, as my 
colleagues here have pointed out, significant changes can occur 
and nothing appears to happen. Then you pass thresholds which 
affect the biology of the animal very significantly, and then 
terrible things happen. The coral reefs are a good example. 
Most organisms that live on coral reefs live very near that 
temperature maximum. But generally, the temperature doesn't go 
past it, so you don't see them actually changing. You push the 
temperature up a little bit and lots of things go wrong very 
quickly.
    So I think when you look at these particular canaries, if 
you like, you will start to see very large numbers of them. 
Several of my colleagues here have mentioned pine bore beetles. 
In preparation for this testimony, I spoke to a friend of mine 
who works in the Forestry Department in Virginia, and he said 
his biggest concern at the moment, his biggest concern, is that 
beetles that typically have a 2-year life cycle, it takes them 
2 years to go through their life cycle, and while they are 
alive, they munch on trees, if it warms up just a little bit, 
they will go to a 1-year life cycle. If they go to a 1-year 
life cycle, instantly the numbers of them double.
    And this is one of these very step functions, if you can 
imagine suddenly just doubling all the populations of 
destructive beetles. So when you look at this, there are people 
who are waiting for these to happen. And he bases his 
observations on what has happened in the west. He is gravely 
concerned that this might happen in the pine forests in 
Virginia as well.
    Senator Warner. Well, we have to be very careful when we 
blame all the ills of our natural environment, not to attribute 
it all to global warming. As an old trial lawyer, you have to 
have a chain of proof, almost beyond a reasonable doubt, I 
think, before we are going to see any real action here. Because 
the economic interests of a drastic change in our energy 
supplies and so forth, which affect this, are going to whipsaw, 
believe me. Talk about this institution where you and I have 
been now a couple of decades. If you want to get one issue that 
you can't deal with unless you have an answer, it is the loss 
of jobs. And that could be impacted by various steps we have to 
take.
    But that is not to say I am deterred. But I just want to 
make sure that this chain of evidence, as an old trial lawyer, 
it has to be almost beyond a reasonable doubt if you are going 
to tie it and warp it around global warming.
    Back to the striped bass, I recall a couple of years ago, 
you may have the accurate dates, we actually put an embargo, 
stopped all the fishing and everything. And I have forgotten 
how many years we shut it down, but then they just came back in 
increased numbers, almost. Can you correlate that? And that is 
within the last decade. We have the accurate facts when we shut 
it down and when we opened it up again.
    Mr. Mann. Actually, it is a little bit older than that, 
sir. It is about the last 15 years.
    Senator Warner. Fifteen.
    Mr. Mann. But the closure was really a response to a 
fishing effort.
    Senator Warner. Probably was.
    Mr. Mann. And of course, there are few things that you can 
control in natural populations except the exploitation rate. 
And it certainly was very unpopular when the suggestion was 
that you close it and let the stock rebuild. But nonetheless, 
the closures took place, and now we have a fairly healthy 
population in terms of its size. It certainly is one of the 
good examples of working with fishermen to actually rebuild the 
stock and then to try to manage it, so that everybody has an 
opportunity to use it, whether it is commercially or 
recreationally.
    Senator Warner. Right. But that gives you an example of how 
a species can regenerate itself if you take a certain pressure 
off. Now, if they were going through some extraordinary 1 or 2 
years of climate change, that pressure may diminish that 
species. But if Mother Nature comes swinging back again to more 
normal temperature changes, I would think there hopefully could 
be a regeneration of the species again. But if we react too 
quickly to these abnormal cycles that we are experiencing now, 
and we have a very significant detriment to our economy, the 
fish may come back but the jobs may not.
    Mr. Mann. I agree.
    Senator Warner. Take me on as hard as you want. Let's not 
be pleasant about this thing. Let's just get our brass knuckles 
out and go at it.
    Mr. Mann. Caution is the word of the day. I think all of my 
colleagues here have also said that.
    Senator Warner. All right, thank you. I will come back 
maybe with another question.
    Senator Lieberman. Thanks very much.
    Dr. Kelly, I know that your work doesn't focus on the polar 
bear, the much-mentioned polar bear, much-loved. But obviously 
the polar bear exists in the environment in which you are 
working. So I want to ask you to comment, testify to any 
alterations that you have seen in the polar bear environment 
and in the species itself, if any. And also I suppose just 
comment maybe on your reaction to the U.S. Fish and Wildlife 
Service beginning a process which it concludes will list the 
polar bear as a threatened species and list climate change as 
one of the reasons for that.
    Mr. Kelly. I would be happy to. I have spent some time 
working on polar bears with Steve Amstrup with the U.S. 
Geological Survey. And as I mentioned, the species that I spent 
a lot of my career studying, ringed seals, are the prime food 
of, in fact, 90 percent of what polar bears eat in Alaska are 
ringed seals. So we encounter them frequently in our field 
work.
    Senator Lieberman. And you are, just to repeat in your 
testimony, you said you are already seeing the environment of 
the ringed seals compromising their numbers.
    Mr. Kelly. What we are seeing is these premature snow melts 
that are exposing the young seal pups prematurely to both 
predation and extreme weather events. This can only have a 
negative impact on the seals and hence the bears.
    Senator Lieberman. Right.
    Mr. Kelly. I think, all I can say in terms of the proposed 
listing of polar bears is that you know, there are lots of 
things that as scientists we get really picky about, levels of 
confidence about statements we make and about the data and we 
are trained to be very, very conservative in our analysis of 
data.
    But as policy makers, I think you are in a different 
position. You need to look out for the welfare of the whole 
Nation and the wildlife. I think it is important to listen to 
the different points of view and recognize that you have to 
decide when you have enough information to act and when waiting 
is not a prudent thing to do.
    I think it is not, there are lots of things that are hard 
to predict in terms of ecological responses to changes in 
environment. But changes to ringed seals, polar bears, 
walruses, these ice-associated marine mammals, are pretty 
straightforward to predict. It is clearly going to have an 
extremely negative impact on them and it could in fact lead.
    So I guess I would have to say I think it is with good 
foresight that the Fish and Wildlife Service predicts that this 
kind of a change in habitat will in fact threaten polar bears.
    Senator Lieberman. Let me take you one more step in this. 
You indicated in your testimony that in your career you had 
seen the summer ice diminish by 26 percent. So when we see the 
pictures that Senator Boxer showed of the polar bears, seeming 
to be stranded on a piece of ice or jumping from one to the 
other, the layman's conclusion is, well, the ice is melting so 
the area in which the polar bear can exist is smaller, 
therefore the species is threatened.
    Is that, for the record, that is the layman's reaction. I 
want you to speak to how the disappearance of 26 percent of the 
summer ice affects the polar bear. Maybe that is not direct, 
but you know what I am asking.
    Mr. Kelly. Yes, I do, I think. I am a little bit reluctant 
to participate too much in this idea of using polar bears as 
sort of the poster species, simply because then all of a 
sudden, the argument starts to about a single species. And what 
is important, in my view, is the entire ecosystem. Hence I 
talked about algae that live in the ice. I talked about fish 
and plankton that are all associated with that.
    So you have to understand that, I sort of think this is not 
like, well, we have just wiped out all the bison, but now we 
are rolling up the plains behind them, to having the sea ice go 
away. It is taking the whole ecosystem out. It is not just 
taking the charismatic mega fauna away.
    Senator Lieberman. Very good point, and I take it.
    Mr. Kelly. And that said, the fact is that yes, I was there 
when that photo was taken of the bear pouncing. That was taken 
up near Angle Island. Yes, you can show polar bears doing that 
in situations where the local conditions are quite healthy and 
fine.
    But just last week in Anchorage, at a science symposium, I 
heard presentations by the polar bear research community on 
their latest research. One of the things that was particularly 
compelling to me was that they had very good information on 
denning sites from satellite tracking that has gone on for 
several decades. And what they see is a substantial shift from, 
most bears in Alaska used to den on the sea ice, and few on 
land. And now increasingly larger numbers are denning on land, 
because the ice is so far offshore.
    This is a big response, a big change. And it is for reasons 
like that, I think there are data out there that we would be 
foolish not to extrapolate and be proactive rather than waiting 
until we can show with 95 percent confidence that the 
population has declined by X amount.
    Senator Lieberman. Thank you. I appreciate that answer very 
much. It is very helpful.
    Mr. Stalling, let me ask you a last question. In your 
testimony you talked about changes you have observed in the 
trout. Neither you nor I are scientists. But I presume, correct 
me, that you have read some of the science here and if I am 
right, to the extent that you have, what does the science tell 
you to explain the changes that you have observed in trout? And 
obviously, particularly to the extent that it is convincing, 
the effect of global warming.
    Mr. Stalling. With less snow pack and less waters in the 
streams and hotter conditions and the water evaporating and 
drying out quicker, we are just seeing less stream flows and 
lower streams. I have seen a lot of trout in the streams that I 
fish bunch up more in what deep pools still remain. And as the 
water gets warmer and the fish are bunched up more, there is a 
lack of oxygen and increased algae which further takes the 
oxygen and puts a lot of stress on the fish. It makes them more 
susceptible to predation.
    In fact, the Montana Fish, Wildlife and Parks is 
increasingly closing our rivers, many of our rivers, like the 
Big Hole, and the Badger and the Dearborn, fishing earlier and 
earlier in the summer, because they are drying up so quickly. 
And the fish are so stressed that it is just not looking so 
good for them.
    Senator Lieberman. Thank you very much.
    Senator Warner.
    Senator Warner. Let me follow onto that important question. 
I recited what I have seen in acid rain. But do you see changes 
in trout populations in either the east or the west or east 
coast? We are east coast here, obviously, the Blue Ridge 
Mountains. But what about the west coast?
    Mr. Stalling. That I am not familiar with, Senator, but I 
could find out and get back to you.
    Senator Warner. I think we need to look at the entire 
geographic spectrum on that. Of course, we know that the trout 
is a magnificent fighting fish, that is why we spend so much of 
our lives trying to outwit it. And it is a smart fish.
    But are they more susceptible than other species? I mean, 
the old catfish in our ponds in Virginia and the crappie and 
other things, they seem to proliferate, nothing can stop them. 
Is it because of the weakness of their system?
    Mr. Stalling. Senator, they are real sensitive to warmer 
temperatures, they are generally in cold fisheries. They need 
that cold, clear water that we get in the mountains of Montana.
    Senator Warner. My last question, Mr. Chairman, is to 
follow on your question with Dr. Kelly.
    Is there any correlation between the problems that the 
commercial fishermen in the Antarctic are experiencing to 
global warming?
    Mr. Kelly. Did you say in the Antarctic?
    Senator Warner. Well, up there in the Arctic, in that whole 
region, the Antarctic or Arctic.
    Mr. Kelly. Yes, the rich Bering Sea fishery, as I stated in 
my testimony, is very much linked into the ecology of the ocean 
as, it is really dominated by sea ice. And starting with the 
plant production----
    Senator Warner. Dominated by sea ice?
    Mr. Kelly. Sea ice, that is correct. Oceanography and where 
the nutrients go, where the primary production happens, the 
plant life that supports the fish population is very much 
driven by where sea ice is in the springtime. So what we are 
beginning to see are, we think, a shift from a community where 
the bottom communities are where a lot of the nutrients end up, 
to a very different situation where, because of the changing 
oceanography associated with ice retreat, the nutrients are 
more concentrated in the water column. That means a very 
different suite of organisms living there. It may mean a less 
productive system.
    But most importantly, I think, for commercial fisheries is 
that it is a very abrupt shift in what is there and what is 
available to be captured. So this is one of many ways in which 
we are likely to see very substantial economic impacts. This is 
huge in terms of over half of our national fisheries.
    Senator Warner. Mr. Chairman, we should congratulate this 
panel, who have come from distances afar to join us here today. 
I think their associates and colleagues and following 
constituencies, as we say, across America, should be grateful 
to them.
    Senator Lieberman. Hear, hear. I agree. I thank you all, 
not only for your testimony that you have offered here and the 
answers that you have given to our questions, but each of you 
has submitted testimony that I know you worked on for the 
record of the Subcommittee. It is really worth reading. It is 
very, very important and to me very impressive.
    I will say that in the time that I have been interested in 
this problem, I will either give credit or blame to Tom Lovejoy 
for having done some of the first work. We go back to Yale 
together. But he is self-evidently younger than I.
    Senator Warner. Does that old school tie hunt out in 
Montana, Tom? That dog don't hunt out there, does it.
    [Laughter.]
    Senator Lieberman. In the time that he has been working on 
this, and helped others of us wonder about it, we have gone 
from basically projecting scientific models to some of the 
consequences to seeing some of the consequences. And you have 
testified today very quietly, very methodically, to what you 
have observed, although I do think that some weight of your 
testimony cries out quite loudly for us to try to find a way to 
respond to this challenge.
    So I thank you very much. The record of the hearing will be 
kept open for 10 days, if you want to submit any additional 
comments, if we want to burden you with any additional 
questions for you to answer. But I thank you very, very much 
for the work you have done here. Senator Warner, I thank you 
for your interest in this. I truly look forward to working 
through this with you to some good result.
    The hearing is adjourned.
    [Whereupon, at 12:00 p.m., the committee was adjourned.]
    [Additional statements submitted for the record follow:]
  Statement of Thomas E. Lovejoy, President, Heinz Center for Science, 
                     Economics and the Environment
     Thank you for the opportunity to testify on climate change and its 
effects on wildlife, namely the rest of life on earth or biodiversity. 
I am Thomas Lovejoy, President of the Heinz Center for Science, 
Economics and the Environment, a non-partisan no-advocacy environmental 
policy center that engages business, Government, academia and 
environmental groups in developing environmental policy.
     I have been engaged in the topic of this hearing for more than two 
decades, having produced the first book on the subject with Rob Peters 
in 1992 and just 2 years ago a completely new one with Lee Hannah, a 
copy of which I present here. The distinct difference between the two, 
and indeed what led to doing a new one, is that today there are well 
documented and statistically significant examples of nature responding 
to climate change. Some of these changes involve different timing in 
the annual cycles such as migration or flowering, others involve 
changes in where species occur, yet others involve threshold changes in 
ecosystems, and some involve systemic changes such as the acidification 
of the oceans. The data have moved from the anecdotal to the 
statistically significant and they demonstrate unequivocally that 
nature is on the move. There is by now a global scientific literature 
on this subject but I will restrict myself here to American science and 
examples.
     Climate change is not new in the history of the earth, but it is 
new in the history of human civilization and our dependence on the 
natural world. For the last ten thousand years, the entire human 
enterprise has been built on the assumption of a stable climate, 
including the origin of agriculture which in turn made human 
settlements possible, and our entire recorded history. For that period 
the patterns of nature and of individual species and organisms have 
been attuned to the unusual period of stability. Today we can see the 
first stirrings. The map of geographical growing zones that constitute 
a bible for gardeners as to what they can or cannot grow, has recently 
been revised to accurately reflect the climate change that has already 
taken place. Tree swallows were laying eggs nine days earlier by 1991 
in comparison to 1959 (2), In the western United States there is 
earlier flowering by 2 days per decade for lilacs and 3.8 days per 
decade for honeysuckle (3). In the mid-Atlantic experimental evidence 
shows that poison ivy is favored by higher concentrations of the 
greenhouse gas CO<INF>2</INF>. One of the best studied butterfly 
species in the United States, the Edith's Checkerspot has changed its 
geographical range generally moving northward and upslope (4).
     One of the immediate consequences and a foreshadowing of things to 
come are mismatches between species and their environment and linked 
species. For example if one species depends on temperature for cues and 
the other day length, climate change will change one and not the other. 
This has been occurring between the checker spot and the flower species 
on which it depends (5). In the arctic some seabird species which feed 
on the Arctic cod, a species which lives on the underside of the ice, 
are no longer able to breed successfully because the ice edge is too 
far from the land on which they must nest (6).
     The important issue before us is not the stirrings we can already 
document but the changes that further climate change is likely to 
engender. Here we can turn for glimpses of the future by pairing 
climate model projections with what we know of how nature responded to 
natural climate change in the past--such as during the glacial 
interglacial swings which preceded the stable climate ``sweet spot'' 
which has been so favorable to human civilization. We can anticipate 
multiple and massive mismatching and wrenching changes in the 
ecosystems on which we depend. It is quite clear from the fossil record 
that biological communities do not move as units like Birnam Wood in 
Macbeth, but rather that individual species move individually at 
different rates and sometimes in different directions as they attempt 
to track their required conditions. Basically ecosystems will 
disassemble and the individual species will assemble into novel 
biological communities: both a nightmare for natural resource managers 
as well as for the rest of us, as the shuffling of the ecological decks 
favors opportunistic species such as weeds, pests and diseases.
     It is already clear that there will be threshold changes in 
ecosystems. One clear-cut example has been occurring in the coniferous 
forest of western Canada and the northwest United States. There, the 
naturally occurring pine bark beetle--always part of the ecosystem but 
held largely in check by other species, has had the balance tipped in 
its favor by a succession of mild winters and elevated summer night 
time temperatures. There has been massive die off of trees, the red 
color of which makes the landscape reminiscent of autumn color in New 
England (7). Even if it were not to spread farther (and there is no 
obvious biological barrier) it has had a huge impact on the timber 
industry and all species that live in those forest, as well creating 
conditions for forest fires of a magnitude we have never seen.
     Threshold changes and more gradual linear changes in ecosystems 
are driven not only by temperature difference but also by change in 
precipitation patterns. Obviously that will be a problem for freshwater 
ecosystems already coping with temperature change. In the American 
southwest there already is a dramatic example of a threshold change 
driven by a marked drop in precipitation: in northern Arizona drought 
has caused a complete die off of trees (8).
     It is important to note that the oceans and marine organisms are 
similarly vulnerable to climate change. (The United States has the 
greatest amount of marine environment of any Nation because of its 
extensive economic zones). Coral reefs prove to be particularly 
temperature sensitive and experience bleaching events in which the 
algal partner of the coral animals is ejected turning that Technicolor 
world into something approaching a black and white movie. Even more 
disturbing we have only recently learned (9) that the oceans are 
increasing in acidity because of the additional carbon dioxide in the 
atmosphere. This is essentially simple high school chemistry: the more 
CO<INF>2</INF> in the atmosphere the more acid the oceans become. They 
are already 30 percent more acid (0.1 pH unit). Increasing acidity has 
profound implications for all organisms that build shells from calcium 
carbonate from corals to clams to tiny plankton at the base of most 
food chains. The calcium carbonate equilibrium is pH dependent.
     If this is the case with current climate change, there could be 
profound effects if climate change is allowed beyond that which is 
already programmed by current levels of greenhouse gas concentrations. 
All five of the global climate models for example show that with double 
pre-industrial levels of CO<INF>2</INF> the sugar maple will no longer 
be able to exist in New England. That is not great news for lovers of 
maple sugar or autumn foliage. It is even worse news for those 
organisms that depend of the sugar maple as part of the northeastern 
deciduous forest.
     One of the biggest problems plants and animals will face is the 
highly modified landscape of modern times. In many instances landscapes 
will represent obstacles to organisms as they attempt to disperse and 
track their required conditions. In the case of organisms near the tops 
of mountains or on low islands, there will be nowhere to go but into 
thin air regardless of whether they are modified by human activity or 
not. This has already been noted in pika populations on individual 
mountains in the American west (10) and foreseen for the key deer with 
sea level rise (11).
     If this is the case with current climate change, there could be 
profound effects if climate change is allowed beyond that which is 
already programmed by current levels of greenhouse gas concentrations. 
This has led to a projection of extinctions from climate change (12). I 
am not here to defend the exact number, but the general point is that 
it is a large number if climate change is allowed to go on business as 
usual.
     The question then is where is the danger zone in climate change 
which should be avoided. Where to stop short? All biologists who have 
looked at the question believe that double pre-industrial 
CO<INF>2</INF> would be disastrous for plants, animals, and ecosystems. 
There is some consensus among the conservation organizations that 450 
parts per million should be the limit. I for one think that is probably 
too generous, impractical as that may seem with our current level being 
at 380. Now there is discussion around what is worse for wildlife: to 
go into the danger zone and then come down to something like 450 or 
below, or whether that brings dangers in itself.
     What is abundantly clear is that the living world on which we 
depend is far more sensitive than almost anything else to climate 
change. Life on earth is sending an urgent warning signal that climate 
change needs to be engaged with--and with an urgency and scale hitherto 
not contemplated.
                               __________
 Statement of Roger Mann, Director for Research and Advisory Services, 
School of Marine Science, Virginia Institute of Marine Science, College 
                          of William and Mary
    Mr. Chairman, members of the committee, it is a pleasure to be here 
today in response to your invitation to provide testimony on Global 
Warming and Wildlife.
    My name is Roger Mann. I am a Professor of Marine Science and 
Director for Research and Advisory Services at the School of Marine 
Science, Virginia Institute of Marine Science, College of William and 
Mary. I have been a researcher examining natural ecosystems and their 
management for both ecological services and sustained harvest of 
commercially valuable products for over 30 years. While my primary 
focus has been on estuarine and coastal systems it is impossible to 
examine such systems without an appreciation of the biology of the 
complex watersheds that are the source of the rivers that feed these 
estuarine and coastal systems. Today I focus my remarks on the 
magnitude of predicted global warming events, and discuss wildlife 
impacts using examples from my adopted home State, the Commonwealth of 
Virginia.
    Global warming is a real phenomenon. Worldwide projections of 
temperature rise over the next century vary between 1.5<SUP>o</SUP> C 
and 5.5<SUP>o</SUP> C. A current scientific challenge is to refine 
models that were designed to make predictions at the global level and 
make them amenable to predictions at the regional level. There are 
roughly twenty different global models operating on about 14 
supercomputers around the world that are focusing on these problems. At 
the regional level the models do a better job of predicting temperature 
than they do of predicting rainfall. The scenarios for Virginia in the 
coming century predict temperature increases from 3.5<SUP>o</SUP> C to 
as high as 6.5<SUP>o</SUP> C clustered in the summer months, but the 
accompanying overall rainfall patterns vary between drier and wetter in 
total amount, sometimes with a wetter spring but drier fall months, and 
often with more extreme rainfall events. Fresh water supply dominates 
much of what we see in wildlife biology. These warm and wet, or warm 
and dry scenarios have clear implications for change in natural 
populations in Virginia and elsewhere.
    I argue that Virginia is an excellent example of a natural 
laboratory in which to study the impacts of global warming, that 
impacts are becoming evident in all natural systems within the State, 
and that they are cause for concern. Virginia sits at a number of 
important biogeographic boundaries where animal and plant species, both 
terrestrial and aquatic, change in north-south and east-west 
directions. Climate, and particularly temperature, is a causative agent 
in determining these boundaries. A simple viewing of a weather map on 
the evening news illustrates the role of climate. In the winter the jet 
stream can dip in a southerly direction and cold air moves in from the 
mid-west and southern Canada. As the jet stream moves north, warmer air 
displaces the cold air. By contrast, summer weather is dominated by 
warm, humid air masses from the Gulf of Mexico. Gradual changes in the 
duration and extensions of these respective air masses in a north to 
south direction translates into shorter and warmer winters and/or 
longer and wetter summers. Again, both have implications for the 
natural populations.
    A transect from west to east across the landscape of Virginia 
includes the forested foothills of the Appalachians, the coastal plains 
that support a mixture of forestry and agriculture, freshwater wetlands 
whose values as filters of water have only recently been fully 
appreciated, tidal salty estuaries feeding the Chesapeake Bay with its 
fringing marshes, coastal barrier islands and the inner continental 
shelf. Remarkable diversity exists both along the transect and within 
each habitat type. Indeed, it is the rich biodiversity within local 
habitats that contribute to their stability. The plant and animal 
communities that occupy these habitats have evolved over geological 
time. The complex interaction between these community members is all 
important, and if there is a single message that I leave with you today 
it is that destabilizing the relationships between just a few of these 
contributing species can have a domino like effect resulting in large 
and deleterious impacts on the entire community. Consider as an analogy 
a spider's web, all parts contributing to stability in function. But 
break a limited number of strands and the web is weakened. Just a few 
more strands and the web collapses. A universal concern among 
biologists throughout the Commonwealth of Virginia is that global 
warming will unravel just a few of those strands with cascading 
impacts.
    Let me walk you from the Appalachians to the ocean shelf and 
provide just a few examples of our concern.

     As summer temperatures increase there is expectation that forest 
species typical of the Appalachian foothills will move north and to 
higher altitude. Warmer temperatures in combination with lower rainfall 
favor conditions that promote fires and increase the probability that 
stressed trees will eventually succumb to insect and disease problems--
especially so when insect species can migrate faster than trees.
     All plants respond on a seasonal basis to both temperature and 
day length in their annual cycles of growth and reproduction. Changing 
the synchrony of these events by elevating temperature in a fixed 
sequence of day lengths can be expected to disrupt the equilibrium in 
forest communities. Insects play important roles in forest ecosystems 
as both food for higher tropic levels, such as birds and small mammals, 
and as destructive agents of trees. Warmer temperatures will both 
increase the range of destructive insects and alter insect life cycles; 
for example reducing 2-year life cycles to 1-year with obvious doubling 
of the impact on the host trees. Such situations have already been 
documented in western States where warming has allowed the pine borer 
beetle to move to higher latitudes and attack stands of lodgepole and 
ponderosa pines. Pine beetles now attack white bark pines, essential 
habitat for grizzly bears.
     Changes in physical forest structure by the death of trees 
creates fragmentation of the footprints of forest growth on larger 
spatial scales. Disturbance at the edge of forested areas provides 
opportunity for invasive species, usually non-native to the 
Commonwealth but introduced over time either intentionally or by 
accident, to establish a foothold and eventually expand their range 
with displacement of native species. Non-native plant species often 
remain green through warmer periods that stress native forest plants, 
compounding their advantage in warmer conditions. Indeed, invasive 
species such as the Tree of Heaven (Ailanthus altissima), Japanese 
Honeysuckle (Lonicera japonica) and the Multiflora Rose (Rosa 
multiflora) have been documented to make up one half of the biomass in 
some stressed and invaded forest communities in Virginia. Changes in 
forest composition may pose grave problems for the many migratory birds 
that pass through the region. Virginia's Department of Forestry closely 
monitors this situation.
     Managed agricultural land in Virginia is richly used by wildlife. 
It is possible that climate and water conditions will help some 
commercial crops in the short run, but it is also likely that climate 
changes will lead to lower yields and many important food crops would 
be less nutritious. Maintenance of productivity on Virginia farms lands 
is a constant adaptive response to rainfall, temperature, and the 
vagaries of pests, parasites and weed species, many of which are 
invasive. A general increase in temperature will drive out native 
animals and encourage the spread of potentially destructive tropical 
plant and insect invasive species, such as, tropical soda apple 
(Solanum viarum), cogongrass (Imperata cylindrical), water hyacinth 
(Eichhornia crassipes), and pink hibiscus mealybug (Maconellicoccus 
hirsutus). The vigilance of Virginia's Department of Agriculture and 
Consumer Services insures rapid response to local threats.
     Invasive plants such as the common reed Phragmites australis 
threaten stressed freshwater marsh habitat resulting in significant 
change in community structure and opportunities for native wildlife.
     Temperature and rainfall both drive in-stream river flow and 
water quality parameters that are central to successful growth and 
reproduction of freshwater fishes in Virginia rivers.
     Divergence of long-term temperature and day length synchrony 
could impact food chains supporting resident fishes in rivers and 
streams. Studies in Seattle's Lake Washington have demonstrated an 
advance in the timing of the spring plankton bloom with warming 
temperature; however, key zooplankton species (on which fish feed) that 
typically graze on the bloom have not changed their seasonal activity 
and now miss the optimal grazing period. Fish go hungry.
     Estuaries are enormously complicated ecosystems, changing over 
time and across spatial scales. The Chesapeake Bay is the largest 
estuary in the Nation, with a watershed covering 8500 square 
kilometers, 60 percent of which are forested, and a resident population 
of over 15 million people. This water body is a national treasure in 
terms of its recreational, commercial and societal value. Oxygen 
solubility in seawater decreases as temperature increases creating an 
increasingly stressful environment for resident species living in 
shallow waters, but it can and does get worse in deeper water. Each 
summer part of the main stem of the Bay stratifies as warmer, fresher 
water layers above denser, saltier water. The deep layers do not mix 
and their oxygen content is depleted-- hypoxia (low oxygen) and 
eventually anoxia (no oxygen) dominate. Such deep regions have been 
described as dead zones. We know the dead zone is getting bigger each 
year and all the projections associated with global warming scenarios 
predict an increase in its size.
     Dead zones force species that typically seek refuge in deeper, 
colder water into warmer shallower water where they suffer 
physiological stress. A prime example is the striped bass (Morone 
saxatilis). Ecologically important, recreationally and commercially 
valuable--a magnificent fish. We know that 80 percent of the striped 
bass in the Bay are infected with a disease called Mycobacteriois, but 
this is manifested predominantly in stressed fish. Warmer waters, we 
suspect, bring increases in the numbers of fish characterized by large 
skin lesions.
     Submerged aquatic vegetation (SAV) in the shallow waters of the 
bay form complex shallow water habitats that are critical for small 
crabs and fish. Bay SAV populations are under stress. The single 
dominant native SAV species, eelgrass (Zostera marina), is already at 
the southern end of its range and increased temperature contributes to 
its local instability. Indeed, a significant die off in eelgrass in 
2005 has been related to local high water temperature. The prospect for 
displacement of the native eel grass by the more temperature tolerant 
widgeon grass (Ruppia maritima) is not comforting in that widgeon grass 
is more ephemeral in nature.
     Oyster (Crassostrea Virginia) populations in the Bay have been 
ravaged over the past 4 decades by two diseases, commonly termed MSX 
(Haplosporidium nelsoni) and Dermo (Perkinsus marinus), whose activity 
is temperature dependent. Indeed increasing water temperature has been 
identified as the primary agent allowing the range extension of Dermo, 
with its deleterious impacts, from the Chesapeake Bay northwards to the 
Delaware Bay and Long Island Sound over the past two decades. Very 
large investments have and are being made to restore the Bay's oyster 
resource and the industry that it supports. The added challenge of 
increased disease prevalence and intensity makes this task yet more 
difficult.
     The Eastern Shore of Virginia is a critical feeding station on 
the Atlantic flight path for migratory birds. As food species are 
stressed, consider for example the value of horseshoe crab (Limulus 
polyphemus) eggs during breeding events between the tide lines, these 
bird populations face literal life and death situations.
     On the inner continental shelf the bottom dwelling dominant 
species, the surf clam (Spisula solidissima, also a notable fishery 
resource) is changing in distribution. Forty years ago this species was 
abundant between the Virginia Capes and Cape Hatteras in North 
Carolina. Now, they are virtually absent south of the mouth of the 
Chesapeake Bay. The populations are increasingly being limited to more 
northerly and deeper waters by increasing summer water temperatures. We 
suspect this offshore migration describes the distribution of many Mid-
Atlantic species.

    The addition of climate change to the mix of stressors already 
affecting valued habitats and endangered species will present a major 
challenge to future conservation of U.S. ecological resources. Across 
Virginia, from the Appalachians to the inner continental shelf, we are 
observing changes in natural populations of endemic plants and animals 
that can arguably be linked to global warming, and we expect trends to 
continue. As biologists we are concerned. As custodians of this rich 
natural resource we should all be concerned.
                               __________
      Statement of David H. Stalling, Western Field Coordinator, 
                            Trout Unlimited
    Thank you for this opportunity to submit testimony regarding global 
warming and wildlife. More importantly, thank you for boldly taking on 
this vital, often controversial issue, and seeking solutions to the 
greatest challenge of our time.
    My name is David Stalling, and I live in Missoula, Montana. I am 
not a scientist or a wildlife biologist. However, I am an avid hunter, 
fisherman, backpacker, hiker, mountain biker, back country skier and 
snow boarder who deeply cherishes the wildlife and wildlands 
surrounding my home. That is what brought me to Montana when I was 
honorably discharged from the Marine Corps in 1986, and it's what keeps 
me here. It's my passion and love for wildlife and wild places--
inspired by my hunting and fishing--that keeps me fighting for the 
conservation and protection of fish and wildlife habitat and the wild 
places that sustains them. Currently, I work as a grassroots organizer 
for Trout Unlimited, a national nonprofit dedicated to the protection 
of coldwater fisheries and watersheds. Prior to that, I worked for the 
Rocky Mountain Elk Foundation, another nonprofit dedicated to the 
protection of critical habitat for elk and other wildlife. I have also 
served two terms as President of the Montana Wildlife Federation, 
Montana's oldest and largest hunting, fishing and conservation 
organization, and often volunteer for the National Wildlife Federation. 
In addition, I write about wildlife, conservation and natural history 
for a variety of national magazines, helping people develop a better 
understanding of science and policy in regards to wildlife and wild 
places.
    The scientific evidence regarding climate change, and the 
consequences of human-caused release of global warming pollution, is 
conclusive and overwhelming, with even stronger evidence seeming to 
come forth every week. Those of us who are close to the land, and spend 
time among wildlife in wild places, are seeing much of this evidence 
first hand.
    Two summers ago, I hiked from my front porch in Missoula to 
Waterton, Alberta. During this eight-week, 800-mile backpack trip, 
mostly off trail, I only crossed three roads, traveling through the 
Rattlesnake, Mission Mountains, Bob Marshall, Great Bear and Scapegoat 
Wilderness Areas, and Glacier National Park. This is some of the 
wildest, most unique and precious country left in the United States, 
providing the last strongholds for rare, threatened and endangered 
species such as grizzly bears, wolves, mountain lions, lynx, wolverines 
and pure strains of Westslope cutthroat trout and bull trout. With 
strong populations of elk, mule deer, bighorn sheep, mountain goats, 
moose and other wildlife, these places also provide some of the best 
hunting and fishing left in the Nation.
    But even here, in such remote, wild places, I witnessed evidence of 
what scientists and wildlife biologists have been warning us about for 
years. Snowpacks, so crucial in the arid West for supplying water to 
our rivers and streams, are rapidly declining. Diminished water flows 
makes for shallower, warmer streams, with less oxygen, making it more 
difficult for coldwater fish such as trout to survive. Increasingly, 
the Montana Department of Fish, Wildlife and Parks are implementing 
summer closures of rivers to fishing to protect trout overly-stressed 
from hot, dry conditions. On my journey, I also saw large chunks of 
forest impacted by increased occurrence of mountain pine beetle, which 
scientists are linking to trees being less resistant to insect and 
disease because of drier, more stressful conditions, and was 
particularly concerned by the rapid death of most white bark pines, 
which provides an important food source for grizzlies and other 
wildlife. I also walked through large expanses of charred forests 
burned by recent wildfires. Our western forests evolved with, and are 
adapted well to fire. However, drier conditions, combined with an 
increase in dead trees from beetle infestations, are resulting in more 
frequent, more damaging fires than what historically and naturally 
occurred, with serious implications for wildlife. Towards the end of my 
adventure, while hiking through Glacier National Park, I could visible 
notice a profound decline in the size of glaciers I have visited in 
past trips. Many scientists are predicting the glaciers in the park 
will be gone within 10 years.
    I work with and speak to hunters, anglers, outfitters, guides, 
ranchers, county commissioners, tribal leaders and others throughout 
Montana and the West, and I hear similar reports and concerns from them 
about changes on the landscape, and its impacts to water, fish, 
wildlife and our western way of life. What I hear from fellow hunters 
and anglers is consistent with a recent survey commissioned by the 
National Wildlife Federation, examining the attitude of hunters and 
anglers regarding Global Warming; We hunters and anglers are witnessing 
the effects of global warming and believe immediate action is necessary 
to address it. Eighty five percent of us believe we have a moral 
responsibility to confront global warming, and eighty percent of us 
believe our Nation should be a world leader in addressing this issue. I 
am definitely among the 75 percent of hunters and anglers who agree 
that Congress should pass legislation that sets a clear national goal 
for reducing global warming pollution with mandatory timelines.
    Others can speak more authoritatively about the importance of these 
wild places, wildlife, and associated hunting, fishing and other 
recreational opportunities to the economy of Montana and the West. And 
it's true. In Montana alone, more than one million people enjoy our 
State's abundant wildlife each year, contributing more than $880 
million to our State's economy. But more importantly, our Nation's 
wildlife and wild lands--along with related hunting, fishing and other 
outdoor recreational pursuits--provide unique cultural, social and even 
spiritual values not only for us Montanans, but for all Americans. This 
is why great American leaders such as Theodore Roosevelt fought so long 
and hard to protect what remained, in his day, of our Nation's wildlife 
and wild places. Today, our wildlife and wildlands face threats that 
Roosevelt probably could never have fathomed. But I am confident he 
would not have shied away from the challenge. Neither should we.
    This is not, nor should be, a partisan issue. In Montana, I know 
Republicans, Democrats and Independents who all share a concern about 
global warming, and a desire to see something done about it. Thank you 
to those Senators and Congressmen who are boldly taking steps to 
confront this issue. For those who are still not on board: I urge you 
to take a closer look at the scientific evidence and consensus, to 
listen to us citizens who are witnessing the impacts first hand, set 
aside partisan politics and various industrial and corporate pressures, 
and tackle this issue with the sense of urgency and immediacy required. 
We do, indeed, have a moral obligation to do what we can and as quickly 
as possible.
    I urge you to take immediate steps to curtail green house gas 
emissions; develop more conservative, responsible energy policies that 
include alternative and renewable sources of energy, more efficient 
ways of using energy, and reduce our need to burn fossil fuels. Even 
with immediate, yet important reductions in greenhouse gas emissions, 
changes will continue with negative impacts to fish, wildlife and wild 
places. Therefore, I also urge you to include, in legislation regarding 
climate change, funding specifically dedicated to help protect and 
restore fish and wildlife habitat through the Wildlife Conservation and 
Restoration account of the Pittman-Robertson Wildlife Restoration Act.
    As for my part, I will continue to do my best to help persuade and 
rally citizens to support your worthy efforts. I know that a majority 
of my fellow hunters and anglers in Montana, and elsewhere in our 
country, are already sending a message loud and clear: The time for 
action is now.
    Thank you, again, for this opportunity.
                               __________
 Statement of A. Lee Foote, Associate Professor, University of Alberta
                              introduction
    I speak today as an individual on the faculty of the University of 
Alberta and as a scientist with a circumspect overview of renewable and 
sustainable resource use. I have paid my way here from my private funds 
with no other donations or source of support. I am a citizen of both 
the US and Canada.
    Rationale for comments:

    (1) It is a unique opportunity to broaden the discussion of 
appropriate resource use which is the core of my professional life 
activities.
    (2) My southern country (USA) is poised to exert a pivotal 
influence on the livelihoods of Inuit citizens of my northern country 
(Canada) without full consideration of the implications. A ``crack-the-
whip effect'' is developing whereby climate change may affect sea ice 
persistence which affects some polar bear habitats, which sparks 
endangered species policy which affects rural Inuit livelihood. There 
is approximately the same number of rural people as there are polar 
bears living in the polar bear's range. I believe the culture and 
welfare of these Inuit, Inuvialuit, Greenlanders and Siberian 
subsistence users have received insufficient consideration in relation 
to polar bear management, particularly their role in resource 
management.
    (3) I remain concerned about possible misuse of science and logic 
in arguments around the polar bear/climate change debate.
    My history with sustainable use comes from participation, research 
and publication on community based natural resource management on three 
continents, and an advisory role in arctic research programs. From the 
2007 IPCC projections\1\ I recognize and accept that climate has 
rapidly changed in the north. Finally, I am not a climatologist or a 
polar bear researcher and I have never sought or received grants or 
support for either of these topics.
---------------------------------------------------------------------------
    \1\http://ipcc-wg1.ucar.edu/wg1/docs/WG1AR4--SPM--
PlenaryApproved.pdf
---------------------------------------------------------------------------
Errors in the application of climate change information to polar bear 
        management
    Conservation connotes use of resources; otherwise, protection 
efforts are better classified as preservation\2\. Sustainable use 
principles are an appropriate framework for considering extractive use 
(hunting)\3\ of polar bears in light of concerns over habitat-driven 
changes in their habitats. The conditions that permit the carefully 
managed conservation hunting of polar bears are highly relevant in 
demonstrating sustainability\4\ as discussion proceeds with the U. S. 
Fish and Wildlife Service's comment period on re-classifying the polar 
bear as an endangered species\5\. To add to this comment period it is 
important to consider error sources in the interpretation of risks to 
polar bears.
---------------------------------------------------------------------------
    \2\Foote, A. L. 2005. Pp 65-68 (In) Conservation Hunting: People 
and Wildlife in Canada's North. M Freeman, B Hudson and L Foote (Eds). 
Canadian Circumpolar Institute Occasional Publ No. 56.
    \3\Adams, WM. 2004. Against extinction. Earthscan Press
    \4\Wenzel G. and M Dowsley p37-45 (In) Conservation Hunting: People 
and Wildlife in Canada's North. M Freeman, B Hudson and L Foote (Eds). 
Canadian Circumpolar Institute Occas Publ. No. 56.
    \5\http://pbsg.npolar.no/
---------------------------------------------------------------------------
    Polar bear data is at risk of being misused in the following six 
ways, thus representing a rationale for not listing polar bears as 
endangered until better and more objective policy consideration has 
been completed.
    1. Errors of logic. Polar bears are being used as an icon of global 
climate change, yet populations of these bears are a response to, not a 
cause of climate change. Regardless of bear populations, climate will 
be unaffected by them, hence more protections for bears is illogical in 
remedying climate change. Simple association does not imply causation.
    2. Errors of insufficient data. Polar bears are an extremely 
adaptable and persistent species that have occupied the arctic for at 
least the last 120,000 years\6\ . Their range constitutes a circumpolar 
belt that, if it follows many other species range shifts, will have 
moved northward and southward in response to previous episodes of ice 
ages and climate warming conditions\7\. We need more information on the 
conditions leading to reductions in ice and in habitat quality at the 
southern fringes of polar bear range and whether a commensurate and 
offsetting improvement occurs at the northern fringe of the polar bear 
ranges. The hypothesis of shifting ranges needs extensive investigation 
by bear surveys in the poorly known northern ranges. For example, if 
healthy bears are found giving birth to triplets instead of twins in 
the north and skinny smaller bears are having singletons instead of 
twins in the south, evidence for population-wide compensation to 
climate may exist.
---------------------------------------------------------------------------
    \6\Pers coms Dr. Mitch Taylor, 3 February 2007.
    \7\ http://www.abcbirds.org/climatechange/
---------------------------------------------------------------------------
    3. Errors of conflation. The listing of polar bears as endangered 
is likely premature because there is insufficient data on most northern 
ranges to identify whether conditions are improving in response to 
climate change even as the southern fringes appear to be degrading. The 
knowledge of Hudson Bay (HB) bears is the best available for any polar 
bear subpopulation in existence\8\. The HB populations are the:
---------------------------------------------------------------------------
    \8\Stirling I, NJ Lund, and J Iocozza. 1999. Arctic 52:294-306.

    (a) most southerly,
    (b) most accessible,
    (c) most handled, for example, 174 bears were anesthetized and 
helicopter ferried out of Churchill in 2005 alone (Tyrell),
    (d) most habituated to humans and human food as they spend months 
near thousands of people in Churchill, some of whom feed them.
    Extrapolation from the HB sub population to all other more 
northerly polar bear populations is inappropriate, yet this leap of 
conflation is commonly taken by the media. Understanding of the 17 
other global polar bear subpopulations north of HB are less robust (but 
see reference\9\), yet, many polar bear biologists on the agree that 
some subpopulations are increasing, some are stable, and some are 
believed to be decreasing.
---------------------------------------------------------------------------
    \9\Stirling, I 2002. Arctic 55 Supplement 1:59-76.
---------------------------------------------------------------------------
    4. Errors of bad faith. Charismatic species are useful for 
marketing perceptions of sports teams (Chicago Bears, Detroit Lions), 
retail products (Chevrolet Impala, polar bears for soft drinks) and 
causes (Free Willy, Born Free Foundation). Credibility is lost, 
however, when scientific knowledge is misused to achieve a political 
end such as unsubstantiated emotional appeals for polar bear survival 
when the ultimate goal is to influence U.S. energy policy. As one of 
those petitioning for ESA listing\10\ of polar bears said: ``[the 
December 2006, ESA listing decision] gives me hope that we can get the 
United States to reduce greenhouse-gas pollution before it is too late 
to save the Arctic''\11\. The goal of reducing climate change is 
honorable, the highly selective use of polar bear information for this 
is less so.
---------------------------------------------------------------------------
    \10\ http://pbsg.npolar.no/
    \11\http://www.grist.org/comments/interactivist/2007/01/15/siegel/
index.html
---------------------------------------------------------------------------
    5. Confusion of proximate and ultimate causes: The ultimate cause 
of polar bear population reductions (absolute decreases over decadal 
time frames) is habitat reduction, particularly less sea ice. In the 
absence of immediate proximate factors, the long-term population levels 
of polar bears will be determined by ultimate factors. Proximate 
factors may include reduced fecundity, cub abandonment, cannibalism, 
starvation, hunter harvests and increased energy demands from changing 
conditions. These sources of mortality are appropriate in that they 
reflect a form of population regulation to more closely match bear 
numbers with the ranges' ability to support them.
    6. Lack of specificity: The blanket listing of polar bears is a 
blunt and non-specific regulation that does not accurately target the 
threatened subpopulations of polar bears. The Endangered Species Act as 
applied to Grizzly Bears occurring on U.S. lands shows the flexibility 
to list the grizzlies in the coterminous States as endangered, yet 
those in Alaska as abundant enough for sustainable harvests and export. 
Even if this same mechanism were applied to polar bears, it redundantly 
mimics the Marine Mammals Protection Act that already provides 
protection for those specific populations most at risk and acknowledges 
the increases/stability where they are known for subpopulations.\12\
---------------------------------------------------------------------------
    \12\ Gissing, D. 2005. p 72 (In) Conservation Hunting: People and 
Wildlife in Canada's North. Milton Freeman, Bob Hudson and Lee Foote 
(Eds). Canadian Circumpolar Institute Occas. Publication No. 56.
---------------------------------------------------------------------------
Polar bear watching
    Bears are powerful and potentially dangerous predators, so polar 
bear watching is rarely promoted as a tourist activity given the lack 
of amenities available in the polar bears' territories. The principal 
place where polar bear watching has been developed (Churchill, 
Manitoba, the self-styled `Polar bear capital of the World') is 
accessible by rail and air and hosts 6-8,000 tourists each fall to 
watch the bears from the safety of sturdy 'Tundra Buggies' made from 
modified buses. Most bear observations are from 0-30 meters and bears 
are approached approximately every 10 minutes during the day.\13\
---------------------------------------------------------------------------
    \13\ Dyck, MG and RK Baydak. 2006. Human Dimensions of Wildlife 
11:143-145.
---------------------------------------------------------------------------
    Tourist amenities are well-developed because Churchill hosts not 
only polar bear watchers, but visitors at other times of year who 
variously watch whales, arctic/subarctic birds, and the Aurora 
Borealis, and who attend courses at the Churchill Northern Studies 
Center, or to fish, hunt, or engage in ecotourism expeditions.
    In North Alaska a small number of tourists visit Barrow and 
Kaktovik where they observe whaling activities and view polar bears 
attracted to the whale carcasses.
    Churchill, Manitoba is unique in having good access, good 
concentrations of bears and tourist infrastructure. It is a highly 
valued experience available for $3,000-$6,000. This form of tourism is 
not widespread. For example, seeing a solitary bear in a remote arctic 
village (necessarily at a distance, for safety reasons) is less 
attractive than the opportunity available at Churchill, every day of 
the visit, to photograph dozens of bears at very close range. There 
have been problems with bear watching too. Tour operators are purported 
to attract bears with blocks of lard, by rubbing fish oils on the 
wheels of their tour buggies, and by hauling whale carcasses as 
attractants to nearby beaches to ensure client viewing opportunities. 
Habituated bears sometimes become nuisance bears, necessitating an 
identifying paint mark on their hide, sometimes temporary restraint in 
Churchill's ``bear jail'' holding facility and occasionally helicopter 
translocation of bears to remote areas. In 2004 there were 174 bears 
helicopter-transported out of Churchill. The remote northern town of 
Arviat, 150 miles up the coast from Churchill was simultaneously 
beleaguered with nuisance polar bears, many of which carried an 
identifying paint mark on them\14\. In earlier times, polar bear 
hunting was a crucial management tool in remote villages and possibly 
structured the bear-human relationship in ways that no longer occur.
---------------------------------------------------------------------------
    \14\Dr. Martina Tyrell--Unpublished Document
---------------------------------------------------------------------------
Polar bear hunting
    In contrast to the bear-watching industry, polar bear hunters need 
almost no amenities beyond those available to local people. Visiting 
hunters spend very little time in the communities, yet contribute a 
significant source of revenue. A recent study of polar bear 
conservation hunting determined that the nine Inuit communities in 
Nunavut Territory who hosted visiting polar bear hunters received about 
$650,000 for allocating 15 percent of their subsistence quota to 
visiting hunters\15\. These revenues were paid out as wages (a guide 
may earn more than $7,000 for accompanying a hunter on a two-week hunt 
and may work three hunts per season), to the outfitter for making all 
arrangements, and to various community members for making suitable 
clothing, preparing the trophies for shipment, and for local purchases.
---------------------------------------------------------------------------
    \15\Foote, AL and G Wenzel--Reciprocal benefits of polar bear 
hunting (In Press).
---------------------------------------------------------------------------
    For the local residents, polar bear hunting is culturally, 
socially, economically, and nutritionally important, and for those 
engaged in outfitting and guiding visiting hunters, that seasonal 
occupation provides meaningful employment at a time of year when other 
jobs are scarce or non-existent\16\. Conservation hunts by foreign 
sportsmen do not increase the harvested numbers of bears; rather, 
foreign hunters purchase a small percentage of the harvest quota from 
participating communities. Reducing the number of U.S. sportsmen 
legally hunting polar bears would not result in fewer bears being 
killed as local hunters will, in every case, fully utilize the allotted 
tag numbers\17\. The loss of revenue from conservation hunts may 
actually increase demand for a larger Inuit subsistence quota to help 
offset the loss of needed revenue that visiting hunters brought into 
the community. The willingness to kill nuisance bears that approach 
remote villages is currently thwarted by the community's recognition of 
the very high economic and social values seen in polar bears. In the 
absence of a lucrative hunting arrangement, the value of polar bears is 
likely to be reduced and bears near villages are more likely to be 
viewed as a nuisance than a valued resource.\18\
---------------------------------------------------------------------------
    \16\Keith, D. 2005. Inuit Qujimaningit Nanurnut; Inuit knowledge of 
polar bears. Canadian Circumpolar Institute Press.
    \17\Wenzel G. and M Dowsley p37-45 (In) Conservation Hunting: 
People and Wildlife in Canada's North. M Freeman, B Hudson and L Foote 
(Eds). Canadian Circumpolar Institute Occasional Publ. No. 56.
    \18\Pokiak, F. p 52 (In) Conservation Hunting: People and Wildlife 
in Canada's North. M Freeman, B Hudson and L Foote (Eds). Canadian 
Circumpolar Institute Occasional Publication No. 56.
---------------------------------------------------------------------------
    The polar bear technical committee (meeting in Edmonton 5-9 Feb 07) 
represents a very knowledgeable group with great expertise which will 
help lead the data collection and management of polar bear populations. 
Their collected wisdom is pivotal to our biological and distributional 
understanding. Native groups' observations may strongly supplement this 
understanding through hypothesis formulation, mechanism of population 
change, and bear behaviors within a smaller geographic range. These 
cross-linkages have started and need to be encouraged\19\.
---------------------------------------------------------------------------
    \19\Diduck, A, N Banks, D Clark, and D Armitage. 2005. Pp 269-290 
in Breaking Ice, Berkes et al. (Eds). University of Calgary Press.
---------------------------------------------------------------------------
    Continued debate is essential for allocation of polar bear kills. 
This specific mortality factor is not considered a singular risk in the 
proposed ESA petition; therefore, if polar bears are re-classified as 
endangered, exemptions for managed harvest and importation are 
important considerations for the act.
                               __________
 Statement of Brendan P. Kelly, Associate Vice President for Research, 
                          University of Alaska
    Senator Lieberman and members of the subcommittee, thank you for 
the opportunity to testify today on the impacts of climate change on 
Arctic wildlife. For the past 30 years, I have studied Arctic wildlife, 
primarily ice-associated marine mammals (whales, seals, and walruses). 
My studies have benefited by collaboration with colleagues in the 
scientific community and with Yupik and Inupiaq Eskimos who generously 
shared their knowledge and observations. Over millennia, Eskimo people 
evolved a rich culture around the seasonal sea ice and the plant and 
animal life that, in turn, had adapted to sea ice.
    In the late 1800s, immediately following the decimation of bowhead 
whale and walrus populations by commercial whalers, approximately 50 
percent of the Eskimo population in the Bering Strait region starved to 
death. One hundred years later, I began learning about ice-associated 
animals from Native hunters such as Mr. Alex Akeya, a descendant of the 
survivors of the famine. By that time, the walrus population had 
recovered, the whales were recovering, but the Eskimo population 
remained below its historical size.
    The plants and animals that Alex and his kin depend on exist, of 
course, not in isolation but as part of an ecosystem. This particular 
ecosystem is dominated by seasonal sea ice which strongly influences 
the climate, oceanography, and biology of the Arctic Ocean and 
surrounding lands.
    Sea ice influences not only Arctic climate but, in fact, global 
climate in several ways, most notably through a mechanism first 
described to me by Mr. Akeya. He told me, as we traveled around St. 
Lawrence Island in his walrus skin boat, that in his language (Siberian 
Yupik) the island is named Savouqaq, a reference to the shape of the 
island. The island looks like something that has been wrung out like a 
wet rag. A Yupik creation story described raven diving to the bottom of 
the Bering Sea, taking mud in its beak, and, back at the surface, 
wringing out the mud to form the island. How, I asked Mr. Akeya, did 
his ancestors know that shape of this large island without benefit of 
an aerial view? His answer was that in the autumn, when the island is 
snow covered and the surrounding sea is not yet ice covered, an image 
of the island occasionally is reflected up on to the cloud cover due to 
the high reflectivity of the snow in contrast to the low reflectivity 
of the water. Indeed, it is now known scientifically that sun and ice 
reflect over 90 percent of the incoming sunlight, while sea water 
absorbs over 90 percent of the sunlight. That differential reflection 
explains not only how ancient Yupiks knew the shape of Savouqaq, but it 
also contributes strongly to the faster rate of climate change 
experienced today in polar regions. One consequence of our warming 
climate is the melting of sea ice. Once that melt begins, it is 
accelerated by the resulting change in reflectivity. As the ice changes 
to water, the reflectivity of the surface goes from more than 90 
percent to less than 10 percent resulting in further warming, more ice 
melt, and yet a further decrease in reflectivity. The importance of 
this polar amplification effect to global climate can be appreciated 
when the surface area of the polar seas--as much as 34,000,000 km2 in 
the recent past--is taken into account.
    Sea ice strongly influences winds and water temperature, both of 
which are key determinants of upwelling, the oceanographic phenomenon 
whereby nutrient rich water is brought up to depths at which there is 
sufficient sunlight for phytoplankton to make use of those nutrients.
    The Bering Sea produces our Nation's largest commercial fish 
harvests as well as supporting subsistence economies of Alaskan 
Natives. Ultimately, the fish populations depend on plankton blooms 
controlled by the extent and location of the ice edge in spring. 
Naturally, many other organisms, such as seabirds, seals, walruses, and 
whales, depend on primary production, mainly in the form of those 
plankton blooms. As Arctic sea ice continues to diminish, the location, 
timing, and species make-up of the blooms is changing in ways that 
appear to favor a different kind of ecosystem. While much of Bering 
Sea's production ends up in a bottom-dwelling community of clams, 
crabs, and other organisms favored by walruses, gray whales, bearded 
seals, and eider ducks, the altered ecosystem may instead favor 
organisms living in the water column. The result would be a radically 
altered community of organism favoring a different suite of upper level 
consumers. The subsistence and commercial harvests of fish could be 
altered radically.
    Ecosystem changes, of course, will be profound and effect more 
components than the fish. Many changes already have been observed and 
are predicted to accelerate along with the rates of climate change. The 
changes to the Arctic sea ice ecosystem will be especially rapid and 
profound. In my 30 years studying that system, we already have lost 
over 25 percent of the summer ice cover.
    My colleagues in the scientific community are working diligently to 
understand the manifold impacts of our changing climate. There is a 
real sense of urgency given the pace of change and the tremendous 
economic and social impacts that will ensue. Many of the changes will 
not be obvious or, seemingly, even counterintuitive. Two examples 
involving marine mammal species may be illustrative.
    Walruses feed on clams and other bottom-dwelling organisms. Over a 
nursing period of two or more years, the females alternate their time 
between attending a calf on the ice and diving to the bottom to feed 
themselves. The record ice retreats observed in recent summers 
increasing are extending beyond the continental shelf such that the ice 
is over water too deep for the female walruses to feed. Thus, the 
habitat suitable for adult feeding is becoming disconnected from the 
suitable nursing habitat. The prediction is for walrus populations to 
once again decline.
    Counter-intuitively, ringed seals, the major prey of polar bears 
and an important resource to Arctic Eskimos, face the prospect of 
freezing deaths as a consequence of global warming. Ringed seals give 
birth in snow caves excavated above breathing holes they maintain in 
the sea ice. The snow caves protect the pups from extreme cold and to a 
large extent from predators. As the climate warms, however, snow melt 
comes increasingly early in the Arctic, and the seals' snow caves 
collapse before the pups are weaned. The small pups are exposed without 
the snow cover and die of hypothermia in subsequent cold periods. The 
prematurely exposed pups also are more vulnerable to predation by 
arctic foxes, polar bears, gulls, and ravens. Furthermore, gulls and 
ravens are arriving increasingly early in the Arctic as springs become 
warmer, further increasing their potential to prey on the seal pups.
    The net effect of climate change inevitably will be major changes 
to the ecosystem. Some species will become extinct, others will adapt 
to new habitats. Indeed, the history of the earth has involved many 
ecosystem changes and extinctions. Whether the changes underway today 
will be survived by walruses, seals, Eskimo culture, our economies and 
ways of life, will depend critically on the pace of change. 
Adaptation--biological or social--requires time for adjustment. The 
current rates of change, however, are very steep.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
